<html>
<title> - CYBERSECURITY RECOMMENDATIONS FOR THE NEXT ADMINISTRATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
       CYBERSECURITY RECOMMENDATIONS FOR THE NEXT ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON EMERGING
                        THREATS, CYBERSECURITY,
                       AND SCIENCE AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 16, 2008

                               __________

                           Serial No. 110-138

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
48-089                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

                    I. Lanier Lavant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

   SUBCOMMITTEE ON EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND 
                               TECHNOLOGY

               James R. Langevin, Rhode Island, Chairman

Zoe Lofgren, California              Michael T. McCaul, Texas
Donna M. Christensen, U.S. Virgin    Daniel E. Lungren, California
Islands                              Ginny Brown-Waite, Florida
Bob Etheridge, North Carolina        Paul C. Broun, Georgia
Al Green, Texas                      Peter T. King, New York (Ex 
Bill Pascrell, Jr., New Jersey       Officio)
Bennie G. Thompson, Mississippi (Ex 
Officio)

                   Jacob Olcott, Director and Counsel

       Dr. Chris Beck, Senior Advisor for Science and Technology

                       Carla Zamudio-Dolan, Clerk

           Kevin Gronberg, Minority Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, and Chairman, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science and Technology....     1
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science and Technology....     5
The Honorable Ginny Brown-Waite, a Representative in Congress 
  From the State of Florida:
  Prepared Statement.............................................     6

                               Witnesses

Mr. David Powner, Director, Information Management Issues, 
  Government Accountability Office:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. James A. Lewis, Project Director, Commission on Cybersecurity 
  for the 44th Presidency, Center for Strategic and International 
  Studies; Accompanied by Lieutenant General Harry D. Raduege, 
  Jr., Co-Chairman, Commission on Cybersecurity for the 44th 
  Presidency, Center for Strategic and International Studies; and 
  Paul Kurtz, Member, Commission on Cybersecurity for the 44th 
  Presidency, Center for Strategic and International Studies:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20

                             For the Record

The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, and Chairman, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science and Technology:
  Letter.........................................................     4


       CYBERSECURITY RECOMMENDATIONS FOR THE NEXT ADMINISTRATION

                              ----------                              


                      Tuesday, September 16, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
      Subcommittee on Emerging Threats, Cybersecurity, and 
                                    Science and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:22 p.m., in 
Room 311, Cannon House Office Building, Hon. James R. Langevin 
[Chairman of the subcommittee] presiding.
    Present: Representatives Langevin, Green, Pascrell, and 
McCaul.
    Mr. Langevin. The subcommittee will come to order. The 
subcommittee is meeting today to receive testimony on 
cybersecurity recommendations for the next administration. I 
will begin by recognizing myself for the purposes of an opening 
statement.
    Of course I want to thank our panel for being with us 
today. Good afternoon, and welcome to our final public hearing 
of the 110th Congress. The Subcommittee on Emerging Threats, 
Cybersecurity, Science and Technology has tackled a number of 
critical issues related to our national security, including 
biological, chemical, agricultural, radiological, and nuclear 
threats. We have had an extremely busy schedule, and I thank 
all of the Members for their commitment and their leadership 
over the course of this Congress.
    Today we are holding our eighth hearing on cybersecurity. I 
don't think anyone would disagree when I say that this 
subcommittee has established itself as the policy leader in the 
U.S. Congress on the issue. We have held hearings on hacking 
incidents at the Department of State, Commerce, and Department 
of Homeland Security; cyber attacks on our internet 
infrastructure; oversight on the Cyber Initiative; the need for 
additional investment in cybersecurity research and 
development; mitigating cyber vulnerabilities in the electric 
grid; DHS and critical infrastructure sector plans to mitigate 
cyber vulnerabilities; and incentives for private sector 
critical infrastructure owners to mitigate cyber 
vulnerabilities.
    This is a significant number of hearings, but it is one 
thing to hold hearings and quite another to improve the 
security of America. That is our goal. That is what I want to 
talk about today. I believe our oversight has enhanced Federal 
and critical infrastructure cybersecurity by improving security 
at DHS, highlighting and filling gaps in Federal cybersecurity 
policy, and holding individuals in public and private sectors 
accountable.
    First, we have improved situational awareness, increased 
security on networks at the Department of Homeland Security 
across the Federal Government. Our goal on this committee, one 
that I have discussed on many occasions, is to make the 
Department of Homeland Security the gold standard in Federal 
information security. We have got a long way to go before we 
get there, however. But as a result of our investigations and 
hearings, the CIO's Office began receiving more threat 
briefings. That raises situational awareness.
    The CIO also began working in a more collaborative fashion 
with US-CERT after we questioned why the EINSTEIN system wasn't 
deployed on more networks at DHS. Shortly after our June 2007 
hearing, EINSTEIN was deployed at more than 2 dozen DHS 
gateways, providing greater insight into the significant number 
of attacks on Government systems. This helps us to know where 
to commit resources to our defenses.
    Now, we also saw results from those early subcommittee 
hearings. In April 2007 we called for a national-level 
initiative that would standardize intrusion detection 
technologies across the Federal Government. Eight months later, 
the administration announced a new Cyber Initiative to improve 
the security posture of the Federal Government's networks.
    Second, the subcommittee's oversight has filled and will 
continue to fill significant gaps that exist in Federal 
cybersecurity policy. We spent a significant amount of time on 
the electric grid, one of our most vulnerable critical 
infrastructure sectors. In 2007, this subcommittee initiated a 
review of the Federal Government's effort and ability to ensure 
the security of the bulk power system from cyber attack. We 
began surveying the electric sector to determine their 
mitigation efforts for the Aurora vulnerability. During my 
review of these efforts, it became evident that mitigation of 
this vulnerability was highly inconsistent. My colleagues and I 
were surprised and disturbed to see how dismissive many of the 
companies were of this vulnerability, so we began doing all we 
could to ensure that it would be fixed.
    Today, because of our hearings, more companies are 
mitigating Aurora and other cyber vulnerabilities in their 
systems. During that review, we also identified inconsistent 
Federal policies that would leave the grid vulnerable to cyber 
attack.
    Last week, I testified before the Energy and Commerce 
Subcommittee on Energy and Air Quality about the need to 
provide the Federal Energy Regulatory Commission with emergency 
authority to ensure the security of the electric system from 
cyber attack. I am highly optimistic that the Congress will 
soon consider legislation to grant this authority to FERC, and 
I thank Chairman Boucher for his initiative on this issue.
    Finally, I believe the subcommittee's oversight has 
established much needed accountability in both the public and 
private sectors. For instance, as a result of our investigation 
into cyber attacks of Chinese origin, the inspector general, 
the Office of Security, and the FBI are busy conducting their 
own reviews of attacks on DHS systems. The contractors 
responsible for securing these systems also remain under 
investigation. This would not have happened without the 
oversight of this committee, and I hope that the public will 
soon hear about the findings of these reviews.
    After providing misleading or confusing statements to this 
subcommittee in May, the North American Electric Reliability 
Organization has demonstrated a new commitment to 
cybersecurity, and they should be commended for their efforts 
thus far. After our hearing, NERC announced a process to create 
new standards for cybersecurity and created a new position of 
chief security officer for the electric grid. I was glad to see 
NERC endorsed the FERC emergency authority legislation last 
week, and look forward to watching their continued progress on 
this issue.
    I also at this time want to take the opportunity to thank 
my partner and Ranking Member, Congressman Mike McCaul of 
Texas, who has been a true ally in this effort.
    We have done some good work so far, but there is obviously 
much more work ahead of us. That is why we are here today. In 
October 2007, Mike and I were named co-chairs of the Center for 
Strategic and International Studies Commission on Cybersecurity 
for the 44th Presidency. The CSIS Commission is a nonpartisan 
commission composed of approximately 30 renowned cybersecurity 
experts, both in and out of Government from across the country. 
It is an impressive, experienced, and diverse group of people, 
and we are glad to be joined today by three members of the 
Commission: Jim Lewis, the program director; retired General 
Harry Raduege, one of the four co-chairs; and Paul Kurtz, also 
a member of the Commission. Unfortunately, Scott Charney, Vice 
President of Trustworthy Computing at Microsoft, and the other 
co-chair of the group, was unable to attend today, but he has 
been vital to the Commission's work. I want to acknowledge his 
contributions and leadership as well.
    We are here to talk about what the next administration 
needs to do to improve cybersecurity. There are a number of 
significant issues that the incoming administration will face. 
New organization and national strategies must be considered, 
legal authorities altered and enhanced, investment and 
acquisition policies shaped, regulation and incentive regimes 
revised; and Government relationships with the private sector 
restored.
    Congress plays a key role in the future of cybersecurity 
policy. Just as this administration hasn't spoken with one 
voice, however, committee jurisdictional squabbles threaten to 
divide the attention and focus of Congress on these issues as 
well. That is why I am announcing today that with my colleague, 
Ranking Member and partner in this effort, Congressman Mike 
McCaul and I created the first House Cybersecurity Caucus. The 
purpose of the Caucus is to raise awareness and provide a forum 
for Members representing different committees of jurisdiction 
to discuss the challenges in securing cybersecurity. We have 
already received great support from a number of Members, and we 
look forward to having our kick-off event in January 2009.
    With that being said on the Caucus, I would like to, with 
unanimous consent, enter a letter into the record basically 
announcing and establishing the Caucus. Without objection, that 
will be so ordered.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Langevin. With that, I just want to close by again 
thanking my partner in this effort, Congressman McCaul, and my 
fellow Members of the subcommittee for their participation, 
their support, and their efforts in this area. I want to thank 
of course the witnesses for their appearance here today. Your 
work on the CSIS Commission has been invaluable, and it is 
doing great service to our country, and particularly on the 
issue of cybersecurity. Again, I am grateful for your efforts.
    With that, the Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. McCaul, for 
purposes of an opening statement.
    Mr. McCaul. Thank you, Mr. Chairman. We commend you for 
your excellent leadership, your steadfastness, your focus on 
such an important issue with regards to our national security. 
You have been a real leader in this Congress. I know this is 
our last hearing, but I know we will continue to work together 
as colleagues, as partners, and as friends on this important 
issue.
    I think this Commission is a great legacy. When I look back 
at this Congress and all the things that we have accomplished, 
I can think of nothing that makes me more proud than the 
partnership I have had with you on cybersecurity and the 
creation of this important Commission. So I want to thank you 
for that.
    Mr. Langevin. Thank you.
    Mr. McCaul. You know, this issue doesn't always get the 
headlines. Sometimes people glaze over when you talk about it. 
But I think everybody sitting in this room understands the 
importance of it and how it impacts every facet of our lives, 
and how we are vulnerable to an attack either by criminals, by 
criminal enterprises, by espionage, or by cyber warfare. So 
this is a very, very important issue.
    The oath we took coming into office was to protect and 
defend the Constitution from all enemies, foreign and domestic. 
The most solemn obligation we have as Members of Congress is to 
protect the American people. That is what this committee is all 
about, the Homeland Security Committee, and that is also what 
this Commission is about, is about protecting the American 
people.
    I just came back from my district in my home State of 
Texas, where I witnessed a natural disaster bringing power 
down, destroying homes and lives amidst pain and suffering. 
That is a natural disaster. What we are talking about here is a 
force that would have the same potential, but it is man-made. 
So this committee protects the American people from both man-
made and natural disasters.
    So as we saw the power grids go down in the greater Houston 
area, the Texas Gulf Coast, a cyber attack could accomplish the 
same destruction by the click of a mouse. You know, over the 
last 2 decades America has become increasingly dependent on the 
smooth operation of our computer networks, and many critical 
sectors of our Nation's economy are dependent on cyberspace. It 
is clear that the security of the American homeland is directly 
tied to our cybersecurity efforts.
    As this subcommittee under the Chairman's leadership has 
heard over and over again, our Nation is being attacked by 
determined enemies every single day in cyberspace, resulting in 
economic loss and the loss of critical information to hostile 
foreign powers. It is essential that the next administration 
place a high priority on cybersecurity. It is the intention of 
Chairman Langevin and myself to make sure it is high on the 
radar screen. The Center for Strategic and International 
Studies Commission on Cybersecurity for the 44th Presidency has 
been working on a cybersecurity strategy since November 2007. 
That has been informed by many of this administration's current 
efforts to secure cyberspace. While the President's 
Comprehensive National Cybersecurity Initiative will help 
secure Government networks and help protect our Nation against 
computer network exploitation and attack, we also heard from a 
multitude of essential industry partners that without 
substantial private sector coordination, our networks will 
remain highly vulnerable.
    I believe this Commission's report can and will add 
tremendously to the discussion on how to secure cyberspace and 
how to put the issue high on the next President--no matter 
which party--to put this issue high on the President's priority 
list.
    A key component of the Commission's work has been the 
critical issue of how to involve the private sector in a truly 
comprehensive cybersecurity plan. While the work of the 
Commission is ongoing, we hope to hear from our witnesses 
today, and I hope to hear them discuss some of the Commission's 
work and roll out some of the preliminary findings and 
recommendations.
    On a personal note, again I want to thank you, Chairman 
Langevin, for your truly bipartisan spirit. It is too bad that 
we in the Congress don't have more of that kind of partnering 
in a bipartisan way. I think that is what the American people 
want. I think it is what the American people deserve. When we 
can accomplish great things like this in a bipartisan way, I 
think it does the country tremendous service.
    I want to thank the members that are here today from the 
Commission: Dr. Lewis, General Raduege, Mr. Kurtz. Mr. Powner, 
thank you for being here today from the GAO. But I feel like 
over the course of the last year or so that we have become good 
friends, and I believe that you all are doing some great work, 
and I look forward to hearing your testimony. Thank you.
    Mr. Langevin. I thank the Ranking Member for his statement, 
and again for his input and partnership in this effort. Before 
I go into introducing our panel today, I just want to for the 
record extend my sympathies, condolences to the people of 
Texas, for the loss that they have endured as a result of 
Hurricane Ike. We stand with you in solidarity and support in 
offering any help that we can give as you get through this 
difficult time. I know particularly your district was hit 
pretty hard. Again, our thoughts and prayers are with you and 
your district at this difficult time.
    Mr. McCaul. I appreciate it.
    Mr. Langevin. With that, I just wanted to say that other 
Members of the subcommittee are reminded that under the 
committee rules, opening statements may be submitted for the 
record.
    [The statement of Hon. Brown-Waite follows:]

           Prepared Statement of Honorable Ginny Brown-Waite

    Thank you, Chairman Langevin.
    Thank you for holding this hearing today. As the country moves 
further and further into the twenty-first century, it will become 
increasingly important to improve and expand our ability to prevent and 
respond to cyber attacks. In the coming years, this committee, the 
intelligence community, the Department of Defense and the next 
administration will have to figure out the best way to move forward.
    When a power plant in my State is attacked and shut down by a cyber 
attack from overseas, does the situation constitute an act of war or an 
act of terrorism? Will it be possible to discern the difference? 
Moreover, what is America's capacity to respond to such an attack?
    Eighty percent of the information technology infrastructure in this 
country is owned and managed by the private sector. This fact alone 
means we will have to see greater cooperation between the private 
sector and the Federal Government when it comes to protecting our 
country from cyber attacks in the future. In addition, as the IT 
industry's largest single customer, I hope that the U.S. Government can 
bring its size to bear in driving down costs and encouraging innovation 
in cybersecurity standards.
    Finally, I would like to thank the witnesses for their efforts in 
preparing this study for the next administration. This will certainly 
be a priority going forward, and it seems clear that you have laid down 
some important groundwork.
    I thank you for being here today, and I look forward to your 
testimony.

    Mr. Langevin. With that, I just want to now welcome our 
distinguished panel of witnesses.
    Our first witness is Dave Powner, Director of Information 
Technology Management Issues at the Government Accountability 
Office. Mr. Powner and his team have produced a number of 
reports for this subcommittee in the 110th Congress. I want to 
take this opportunity to thank you and your team for your 
excellent work.
    Our second witness is Jim Lewis, the Director of the Center 
for Strategic and International Studies Technology and Public 
Policy Program. He is a senior fellow. He is also the program 
manager for the CSIS Commission on Cybersecurity for the 44th 
Presidency. Jim, I want to welcome you here today and thank you 
for your friendship and leadership, particularly over this last 
year as the Commission has conducted its work. It has been 
outstanding.
    Our third witness is General Harry Raduege. General Raduege 
is Chairman of the Joint Center for Network Innovation. 
Previously, he spent 35 years serving the Nation in the U.S. 
military. His latest assignments were Director of the Defense 
Information Systems Agency and Commander of the Joint Task 
Force for Global Networks Operations. General Raduege is also 
co-chair of the CSIS's Commission on Cybersecurity. Welcome.
    Our fourth witness is Paul Kurtz, a partner at Good Harbor 
Consulting. Mr. Kurtz is a recognized cybersecurity and 
homeland security expert, having served in senior positions on 
the White House's National Security and Homeland Security 
Security Councils under Presidents Clinton and Bush. He is a 
member also of the CSIS Commission on Cybersecurity.
    Welcome to all of you. For the purposes of opening 
statements, I have asked Mr. Lewis to deliver one opening 
statement on behalf of the other members of the CSIS 
Commission. Without objection, the witnesses' full statements 
will be inserted into the record. I will now ask each witness 
to summarize his statement for 5 minutes, beginning with Mr. 
Powner. Thank you for being here today.

  STATEMENT OF DAVID POWNER, DIRECTOR, INFORMATION MANAGEMENT 
            ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Powner. Chairman Langevin, Ranking Member McCaul. 
Members of the subcommittee, thank you for inviting us to 
testify on cybersecurity recommendations for the next 
administration. Also thank you for your oversight and 
leadership, as our work for you has resulted in numerous 
recommendations to DHS to improve the security of our Nation's 
cyber critical infrastructure.
    Today we are releasing two new reports with significant 
recommendations, completed at your request, on cyber analysis 
and warning, and Cyber Storm exercises. My comments this 
afternoon will address key recommendations in these reports, as 
well as recommendations associated with organizational 
inefficiencies in leadership, sector-specific plans, and 
recovery planning.
    Starting with organizational inefficiencies in leadership, 
several organizational issues need to be addressed to more 
effectively manage cyber operations at DHS. First, the National 
Communications System and the National Cyber Security Division 
need to integrate duplicative and overlapping operations to 
more efficiently respond to communication disruptions.
    Next, the authorities and responsibilities associated with 
the new Cybersecurity Center, establishing a response to the 
President's January 2008 Cyber Initiative need to be reconciled 
with those of both the Assistant Secretary for Cyber Security 
and the NCSD. On a broader scale, a more fundamental policy 
issue that the new administration will need to tackle is 
whether these responsibilities should reside in DHS or whether 
the Nation's focal point for cyber should be elevated to the 
White House.
    Over the course of our work, many in the private sector 
told us that it worked better when it resided there prior to 
the creation of DHS.
    Next, sector planning. Mr. Chairman, we testified before 
you last October on the lack of cybersecurity focus in the 17 
sector plans. The revised sector plans, which are expected by 
the end of the month, need to ensure that our Nation's key 
sectors are keenly focused on prioritizing cyber assets, 
conducting comprehensive vulnerability assessments, and 
addressing security weaknesses. Otherwise, this will remain a 
paper exercise.
    A broader policy issue that the new administration should 
consider is whether all sectors are of equal importance, and 
whether our Nation should designate or prioritize certain 
sectors that are more critical.
    Turning to cyber analysis and warning. Despite some 
progress, our report being released today shows that the US-
CERT is far from the national cyber analysis and warning focal 
point envisioned in policy. Our report lays out 10 detailed 
recommendations and highlights 15 areas that need improved.
    For example, US-CERT needs to expand its scope 
significantly, get more on the front end of attacks, be capable 
of handling multiple significant events, and issue warnings 
that are targeted, actionable, and timely. Leveraging similar 
capabilities at DOD and within the intelligence community 
should also be explored.
    Next, recovery planning. Despite Federal policy requiring 
DHS to develop an integrated public-private plan to address 
internet disruptions, our representations to guide these 
efforts, and numerous congressional hearings on this, a joint 
public-private internet recovery plan still does not exist. 
Despite efforts with the various sectors, ISACs and 
coordinating councils to build better partnerships with the 
Government, this is a clear example of where the partnering has 
not been sufficient. Further, it leaves our Nation not fully 
prepared to respond to major internet disruptions.
    The final area that I would like to address is cyber 
exercises. Today we are releasing a report where DHS has 
completed about two-thirds of nearly 70 actions called for from 
the 2006 Cyber Storm exercise. So, clearly, progress has been 
made and these exercises have proven useful.
    However, Mr. Chairman, more aggressive follow-up needs to 
occur, and DHS needs to document lessons learned from these 
exercises more timely.
    The March Cyber Storm. Two results are not to be documented 
until December of this year. Meanwhile, planning for the next 
exercise is underway. The Nation's focal point for 
cybersecurity should not and cannot be viewed as a slow-moving 
bureaucracy.
    In summary, Mr. Chairman, I would like to thank you for 
your leadership and oversight of our Nation's cyber critical 
infrastructure protection and for focusing the next 
administration on these critical areas that need to be 
addressed.
    Many large policy questions loom: organizational placement, 
continuing with the sector-based approach, regulation versus 
market incentives. However, no matter what decisions or 
approaches our Nation pursues, the Federal Government needs to 
do a better job in the areas it controls, including cyber 
analysis and warning, and coordinating exercises and recovery 
efforts so that it is viewed as a credible player and a partner 
in securing our Nation's critical infrastructure. Today it is 
not. We look forward to working with you in the future on these 
issues and to your questions.
    [The statement of Mr. Powner follows:]

                   Prepared Statement of David Powner
                           September 16, 2008

                             GAO HIGHLIGHTS

    Highlights of GAO-08-1157T, a report to Subcommittee on Emerging 
Threats, Cybersecurity, and Science and Technology, Committee on 
Homeland Security, House of Representatives.

                         WHY GAO DID THIS STUDY

    Recent cyber attacks demonstrate the potentially devastating impact 
these pose to our Nation's computer systems and to the Federal 
operations and critical infrastructures that they support. They also 
highlight that we need to be vigilant against individuals and groups 
with malicious intent, such as criminals, terrorists, and nation-states 
perpetuating these attacks. Federal law and policy established the 
Department of Homeland Security (DHS) as the focal point for 
coordinating cybersecurity, including making it responsible for 
protecting systems that support critical infrastructures, a practice 
commonly referred to as cyber critical infrastructure protection. Since 
2005, GAO has reported on the responsibilities and progress DHS has 
made in its cybersecurity efforts. GAO was asked to summarize its key 
reports and their associated recommendations aimed at securing our 
Nation's cyber critical infrastructure. To do so, GAO relied on 
previous reports, as well as two reports being released today, and 
analyzed information about the status of recommendations.

                          WHAT GAO RECOMMENDS

    GAO has previously made about 30 recommendations to help DHS 
fulfill its cybersecurity responsibilities and resolve underlying 
challenges. DHS in large part concurred with GAO's recommendations and 
in many cases has actions planned and underway to implement them.

  CRITICAL INFRASTRUCTURE PROTECTION: DHS NEEDS TO BETTER ADDRESS ITS 
                     CYBERSECURITY RESPONSIBILITIES

                             WHAT GAO FOUND

    GAO has reported over the last several years that DHS has yet to 
fully satisfy its cybersecurity responsibilities. To address these 
shortfalls, GAO has made about 30 recommendations in the following key 
areas.

                 KEY CYBERSECURITY AREAS REVIEWED BY GAO
------------------------------------------------------------------------
                                                       Area
------------------------------------------------------------------------
1......................................  Bolstering cyber analysis and
                                          warning capabilities.
2......................................  Reducing organizational
                                          inefficiencies.
3......................................  Completing actions identified
                                          during cyber exercises.
4......................................  Developing sector-specific
                                          plans that fully address all
                                          of the cyber-related criteria.
5......................................  Improving cybersecurity of
                                          infrastructure control systems
                                          (which are computer-based
                                          systems that monitor and
                                          control sensitive processes
                                          and physical functions).
6......................................  Strengthening DHS's ability to
                                          help recover from internet
                                          disruptions.
------------------------------------------------------------------------
Source: GAO analysis.

    Specifically, examples of what GAO reported and recommended are as 
follows:
  <bullet> Cyber analysis and warning.--In July 2008, GAO reported that 
        DHS's United States Computer Emergency Readiness Team (US-CERT) 
        did not fully address 15 key cyber analysis and warning 
        attributes. For example, US-CERT provided warnings by 
        developing and distributing a wide array of notifications; 
        however, these notifications were not consistently actionable 
        or timely. Consequently, GAO recommended that DHS address these 
        attribute shortfalls.
  <bullet> Cyber exercises.--In September 2008, GAO reported that since 
        conducting a cyber attack exercise in 2006, DHS demonstrated 
        progress in addressing eight lessons it learned from this 
        effort. However, its actions to address the lessons had not 
        been fully implemented. GAO recommended that the Department 
        schedule and complete all identified corrective activities.
  <bullet> Control systems.--In a September 2007 report and October 
        2007 testimony, GAO identified that DHS was sponsoring multiple 
        efforts to improve control system cybersecurity using 
        vulnerability evaluation and response tools. However, the 
        Department had not established a strategy to coordinate this 
        and other efforts across Federal agencies and the private 
        sector, and it did not effectively share control system 
        vulnerabilities with others. Accordingly, GAO recommended that 
        DHS develop a strategy to guide efforts for securing such 
        systems and establish a process for sharing vulnerability 
        information.
    While DHS has developed and implemented capabilities to address 
aspects of these areas, it still has not fully satisfied any of them. 
Until these and other areas are effectively addressed, our Nation's 
cyber critical infrastructure is at risk of increasing threats posed by 
terrorists, nation-states, and others.
    Mr. Chairman and Members of the subcommittee: Thank you for the 
opportunity to join in today's hearing to discuss efforts in protecting 
our Nation's critical infrastructures from cybersecurity threats. The 
recent computer-based, or cyber, attacks against nation-states and 
others demonstrate the potentially devastating impact these pose to 
systems and the operations and critical infrastructures that they 
support.\1\ They also highlight the need to be vigilant against 
individuals and groups with malicious intent, such as criminals, 
terrorists, and nation-states perpetuating these attacks.
---------------------------------------------------------------------------
    \1\ Critical infrastructure is systems and assets, whether physical 
or virtual, so vital to the United States that their incapacity or 
destruction would have a debilitating impact on national security, 
national economic security, national public health or safety, or any 
combination of those matters. There are 18 critical infrastructure 
sectors: agriculture and food, banking and finance, chemical, 
commercial facilities, communications, critical manufacturing, dams, 
defense industrial base, emergency services, energy, Government 
facilities, information technology, national monuments and icons, 
nuclear reactors, materials and waste, postal and shipping, public 
health and health care, transportation systems, and water.
---------------------------------------------------------------------------
    Today, I will discuss the Department of Homeland Security's (DHS) 
progress in fulfilling its responsibilities to protect systems that 
support critical infrastructures--a practice referred to as cyber 
critical infrastructure protection or cyber CIP--as well as its 
progress in addressing our related recommendations. Due to concerns 
about DHS's efforts to fully implement its CIP responsibilities as well 
as known security risks to critical infrastructure systems, we added 
cyber CIP as part of our Federal information technology systems 
security high-risk area in 2003 and have continued to report on its 
status since that time.\2\
---------------------------------------------------------------------------
    \2\ For our most recent high risk report, see GAO, High-Risk 
Series: An Update, GAO-07-310 (Washington, DC: January 2007).
---------------------------------------------------------------------------
    As requested, my testimony will summarize our key reports--two of 
which are being released today at this hearing--and their associated 
recommendations aimed at securing our Nation's cyber critical 
infrastructure. Specifically, these reports and recommendations focus 
on: (1) Providing cyber analysis and warning capabilities; (2) being 
effectively organized to plan for and respond to disruptions on 
converged voice and data networks; (3) conducting and coordinating 
cyber attack exercises; (4) developing cyber-related sector-specific 
critical infrastructure plans; (5) securing control systems--computer-
based systems that monitor and control sensitive processes and physical 
functions; and, (6) coordinating public/private planning for internet 
recovery from a major disruption.
    In preparing for this testimony, we relied on our previous reports 
on Department efforts to fulfilling its cyber CIP responsibilities. 
These reports contain detailed overviews of the scope and methodology 
we used. We also obtained and analyzed information about the 
implementation status of our recommendations. We conducted our work, in 
support of this testimony, from August 2008 through September 2008, in 
the Washington, DC area. The work on which this testimony is based was 
performed in accordance with generally accepted government auditing 
standards.

                            RESULTS IN BRIEF

    Since 2005, we have reported that DHS has yet to fully satisfy its 
cybersecurity responsibilities. These reports included nearly 30 
recommendations on key areas essential for DHS to address in order to 
fully implement its cybersecurity responsibilities. Examples of what 
GAO reported and recommended are as follows:
  <bullet> Cyber analysis and warning.--In a report being released 
        today, we determined \3\ that DHS's United States Computer 
        Emergency Readiness Team (US-CERT) did not fully address 15 key 
        cyber analysis and warning attributes related to: (1) 
        Monitoring network activity to detect anomalies; (2) analyzing 
        information and investigating anomalies to determine whether 
        they are threats; (3) warning appropriate officials with timely 
        and actionable threat and mitigation information; and, (4) 
        responding to the threat. For example, US-CERT provided 
        warnings by developing and distributing a wide array of 
        notifications; however, these notifications were not 
        consistently actionable or timely. As a result, we recommended 
        that the Department address shortfalls associated with the 15 
        attributes in order to fully establish a national cyber 
        analysis and warning capability. DHS agreed in large part with 
        our recommendations.
---------------------------------------------------------------------------
    \3\ GAO, Cyber Analysis and Warning: DHS Faces Challenges in 
Establishing a Comprehensive National Capability, GAO-08-588 
(Washington, DC: July 31, 2008).
---------------------------------------------------------------------------
  <bullet> Cyber exercises.--In another report \4\ being issued today, 
        we concluded that since conducting a major cyber attack 
        exercise, called Cyber Storm, DHS demonstrated progress in 
        addressing eight lessons it learned from these efforts. 
        However, its actions to address the lessons had not been fully 
        implemented. Specifically, while it had completed 42 of the 66 
        activities identified, the Department identified 16 activities 
        as ongoing and 7 as planned for the future. Consequently, we 
        recommended that it schedule and complete all of the corrective 
        activities identified so as to strengthen coordination between 
        both public and private sector participants in response to 
        significant cyber incidents. DHS concurred with our 
        recommendation.
---------------------------------------------------------------------------
    \4\ GAO, Critical Infrastructure Protection: DHS Needs To Fully 
Address Lessons Learned From Its First Cyber Storm Exercise, GAO-08-825 
(Washington, DC: Sept. 9, 2008).
---------------------------------------------------------------------------
  <bullet> Control systems.--In a September 2007 report and October 
        2007 testimony,\5\ we identified that DHS was sponsoring 
        multiple control systems security initiatives, including 
        efforts to: (1) Improve control systems cybersecurity using 
        vulnerability evaluation and response tools; and, (2) build 
        relationships with control systems vendors and infrastructure 
        asset owners. However, DHS had not established a strategy to 
        coordinate the various control systems activities across 
        Federal agencies and the private sector, and it did not 
        effectively share information on control system vulnerabilities 
        with the public and private sectors. Accordingly, we 
        recommended that DHS develop a strategy to guide efforts for 
        securing control systems and establish a rapid and secure 
        process for sharing sensitive control system vulnerability 
        information to improve Federal Government efforts to secure 
        control systems governing critical infrastructure. DHS 
        officials took our recommendations under advisement and more 
        recently have begun developing a strategy, which is still a 
        work in process. In addition, while DHS has begun developing a 
        process to share sensitive information, it has not provided any 
        evidence that the process has been implemented or that it is an 
        effective information sharing mechanism.
---------------------------------------------------------------------------
    \5\ GAO, Critical Infrastructure Protection: Multiple Efforts to 
Secure Control Systems Are Under Way, but Challenges Remain, GAO-07-
1036 (Washington, DC: Sept. 10, 2007) and Critical Infrastructure 
Protection: Multiple Efforts to Secure Control Systems Are Under Way, 
but Challenges Remain, GAO-08-119T (Washington, DC: Oct. 17, 2007).
---------------------------------------------------------------------------
                               BACKGROUND

    The same speed and accessibility that create the enormous benefits 
of the computer age can, if not properly controlled, allow individuals 
and organizations to inexpensively eavesdrop on or interfere with 
computer operations from remote locations for mischievous or malicious 
purposes, including fraud or sabotage. In recent years, the 
sophistication and effectiveness of cyber attacks have steadily 
advanced.
    Government officials are increasingly concerned about attacks from 
individuals and groups with malicious intent, such as criminals, 
terrorists, and nation-states. As we reported \6\ in June 2007, 
cybercrime has significant economic impacts and threatens U.S. national 
security interests. Various studies and experts estimate the direct 
economic impact from cybercrime to be in the billions of dollars 
annually. In addition, there is continued concern about the threat that 
our adversaries, including nation-states and terrorists, pose to our 
national security. For example, intelligence officials have stated that 
nation-states and terrorists could conduct a coordinated cyber attack 
to seriously disrupt electric power distribution, air traffic control, 
and financial sectors. In May 2007, Estonia was the reported target of 
a denial-of-service cyber attack with national consequences. The 
coordinated attack created mass outages of its Government and 
commercial Web sites.\7\
---------------------------------------------------------------------------
    \6\ GAO, Cybercrime: Public and Private Entities Face Challenges in 
Addressing Cyber Threats, GAO-07-705 (Washington, DC: June 22, 2007).
    \7\ Computer Emergency Response Team of Estonia, ``Malicious Cyber 
Attacks Against Estonia Come from Abroad,'' April 29, 2007, and Remarks 
by Homeland Security Secretary Michael Chertoff to the 2008 RSA 
Conference, April 8, 2008.
---------------------------------------------------------------------------
    To address threats posed against the Nation's computer-reliant 
infrastructures, Federal law and policy establishes DHS as the focal 
point for cyber CIP. For example, within DHS, the Assistant Secretary 
of Cyber Security and Communications is responsible for being the focal 
point for national cyber CIP efforts. Under the Assistant Secretary is 
NCSD which interacts on a day-to-day basis with Federal and non-Federal 
agencies and organizations (e.g., State and local governments, private-
sector companies) regarding, among other things, cyber-related 
analysis, warning, information sharing, major incident response, and 
national-level recovery efforts. Consequently, DHS has multiple 
cybersecurity-related roles and responsibilities. In May 2005, we 
identified, and reported on, 13 key cybersecurity responsibilities 
called for in law and policy.\8\ These responsibilities are described 
in Appendix I.
---------------------------------------------------------------------------
    \8\ GAO, Critical Infrastructure Protection: Department of Homeland 
Security Faces Challenges in Fulfilling Cybersecurity Responsibilities, 
GAO-05-434 (Washington, DC: May 26, 2005); Critical Infrastructure 
Protection: Challenges in Addressing Cybersecurity, GAO-05-827T 
(Washington, DC: July 19, 2005); and Critical Infrastructure 
Protection: DHS Leadership Needed to Enhance Cybersecurity, GAO-06-
1087T (Washington, DC: Sept. 13, 2006).
---------------------------------------------------------------------------
    Since then, we have performed detailed work and made 
recommendations on DHS's progress in fulfilling specific aspects of the 
responsibilities, as discussed in more detail later in this statement.
    In addition to DHS efforts to fulfill its cybersecurity 
responsibilities, the President in January 2008 issued HSPD 23--also 
referred to as National Security Presidential Directive 54 and the 
President's ``Cyber Initiative''--to improve DHS and the other Federal 
agencies' cybersecurity efforts, including protecting against intrusion 
attempts and better anticipating future threats.\9\ While the directive 
has not been made public, DHS officials stated that the initiative 
includes steps to enhance cyber analysis related efforts, such as 
requiring Federal agencies to implement a centralized network 
monitoring tool and reduce the number of connections to the internet.
---------------------------------------------------------------------------
    \9\ The White House, National Security Presidential Directive 54/
Homeland Security Presidential Directive 23 (Washington, DC: Jan. 8, 
2008).
---------------------------------------------------------------------------
      DHS NEEDS TO ADDRESS SEVERAL KEY AREAS ASSOCIATED WITH ITS 
                     CYBERSECURITY RESPONSIBILITIES

    Over the last several years, we have reported that DHS has yet to 
comprehensively satisfy its key cybersecurity responsibilities. These 
reports included about 30 recommendations that we summarized into the 
following key areas that are essential for DHS to address in order to 
fully implement its cybersecurity responsibilities.

                 KEY CYBERSECURITY AREAS REVIEWED BY GAO
------------------------------------------------------------------------
                                                       Area
------------------------------------------------------------------------
1......................................  Bolstering cyber analysis and
                                          warning capabilities.
2......................................  Reducing organizational
                                          inefficiencies.
3......................................  Completing actions identified
                                          during cyber exercises.
4......................................  Developing sector-specific
                                          plans that fully address all
                                          of the cyber-related criteria.
5......................................  Improving cybersecurity of
                                          infrastructure control
                                          systems.
6......................................  Strengthening DHS's ability to
                                          help recover from internet
                                          disruptions.
------------------------------------------------------------------------
Source: GAO analysis.

Bolstering Cyber Analysis and Warning Capabilities
    In July 2008, we identified \10\ that cyber analysis and warning 
capabilities included: (1) monitoring network activity to detect 
anomalies; (2) analyzing information and investigating anomalies to 
determine whether they are threats; (3) warning appropriate officials 
with timely and actionable threat and mitigation information; and, (4) 
responding to the threat. These four capabilities are comprised of 15 
key attributes, which are detailed in Appendix II.
---------------------------------------------------------------------------
    \10\ GAO-08-588.
---------------------------------------------------------------------------
    We concluded that while US-CERT demonstrated aspects of each of the 
key attributes, it did not fully incorporate all of them. For example, 
as part of its monitoring, US-CERT obtained information from numerous 
external information sources; however, it had not established a 
baseline of our Nation's critical network assets and operations. In 
addition, while it investigated if identified anomalies constitute 
actual cyber threats or attacks as part of its analysis, it did not 
integrate its work into predictive analyses of broader implications or 
potential future attacks, nor does it have the analytical or technical 
resources to analyze multiple, simultaneous cyber incidents. The 
organization also provided warnings by developing and distributing a 
wide array of attack and other notifications; however, these 
notifications were not consistently actionable or timely--providing the 
right information to the right persons or groups as early as possible 
to give them time to take appropriate action. Further, while it 
responded to a limited number of affected entities in their efforts to 
contain and mitigate an attack, recover from damages, and remediate 
vulnerabilities, the organization did not possess the resources to 
handle multiple events across the Nation.
    We also concluded that without the key attributes, US-CERT did not 
have the full complement of cyber analysis and warning capabilities 
essential to effectively perform its national mission. As a result, we 
made 10 recommendations to the Department to address shortfalls 
associated with the 15 attributes in order to fully establish a 
national cyber analysis and warning capability. DHS concurred with 9 of 
our 10 recommendations.

Reducing Organizational Inefficiencies
    In June 2008, we reported \11\ on the status of DHS's efforts to 
establish an integrated operations center that it agreed to adopt per 
recommendations from a DHS-commissioned expert task force. The two 
operations centers that were to be integrated were within the 
Department's National Communication System and National Cyber Security 
Division. We determined that DHS had taken the first of three steps 
towards integrating the operations centers--called the National 
Coordination Center Watch and US-CERT--it uses to plan for and monitor 
voice and data network disruptions. While DHS completed the first 
integration step by locating the two centers in adjacent space, it had 
yet to implement the remaining two steps. Specifically, although called 
for in the task force's recommendations, the Department had not 
organizationally merged the two centers or involved key private sector 
critical infrastructure officials in the planning, monitoring, and 
other activities of the proposed joint operations center. In addition, 
the Department lacked a strategic plan and related guidance that 
provides overall direction in this area and has not developed specific 
tasks and milestones for achieving the two remaining integration steps.
---------------------------------------------------------------------------
    \11\ GAO, Critical Infrastructure Protection: Further Efforts 
Needed to Integrate Planning for and Response to Disruption on 
Converged Voice and Data Networks, GAO-08-607 (Washington, DC: June 26, 
2008).
---------------------------------------------------------------------------
    We concluded that until the two centers were fully integrated is 
completed, DHS was at risk of being unable to efficiently plan for and 
respond to disruptions to communications infrastructure and the data 
and applications that travel on this infrastructure, increasing the 
probability that communications will be unavailable or limited in times 
of need. As a result, we recommended that the Department complete its 
strategic plan and define tasks and milestones for completing remaining 
integration steps so that we are better prepared to provide an 
integrated response to disruptions to the communications 
infrastructure. DHS concurred with our first recommendation and stated 
that it would address the second recommendation as part of finalizing 
its strategic plan.
    DHS has recently made organizational changes to bolster its 
cybersecurity focus. For example, in response to the President's 
January 2008 Cyber Initiative, the Department established a National 
Cybersecurity Center to ensure coordination among cyber-related efforts 
across the Federal Government. DHS placed the center at a higher 
organizational level than the Assistant Secretary of Cyber Security and 
Communications. As we previously reported,\12\ this placement raises 
questions about, and may in fact, diminish the Assistant Secretary's 
authority as the focal point for the Federal Government's cyber CIP 
efforts. It also raises similar questions about NCSD's role as the 
primary Federal cyber analysis and warning organization.
---------------------------------------------------------------------------
    \12\ GAO-08-588.
---------------------------------------------------------------------------
Completing Corrective Actions Identified During A Cyber Exercise
    In September 2008, we reported \13\ on a 2006 major DHS-coordinated 
cyber attack exercise, called Cyber Storm, that included large-scale 
simulations of multiple concurrent attacks involving the Federal 
Government, States, foreign governments, and private industry. We 
determined that DHS had identified eight lessons learned from this 
exercise, such as the need to improve interagency coordination groups 
and the exercise program. We also concluded that while DHS had 
demonstrated progress in addressing the lessons learned, more needed to 
be done. Specifically, while the Department completed 42 of the 66 
activities identified to address the lessons learned, it identified 16 
activities as on-going and 7 as planned for the future.\14\ In 
addition, DHS provided no timetable for the completion dates of the on-
going activities. We noted that until DHS scheduled and completed its 
remaining activities, it was at risk of conducting subsequent exercises 
that repeated the lessons learned during the first exercise. 
Consequently, we recommended that DHS schedule and complete the 
identified corrective activities so that its cyber exercises can help 
both public and private sector participants coordinate their responses 
to significant cyber incidents. DHS agreed with the recommendation.
---------------------------------------------------------------------------
    \13\ GAO-08-825.
    \14\ DHS reported that one other activity had been completed, but 
the Department was unable to provide evidence demonstrating its 
completion.
---------------------------------------------------------------------------
Developing Sector-Specific Plans That Fully Address All of the Cyber-
        Related Criteria
    In 2007, we reported and testified \15\ on the cybersecurity 
aspects of CIP plans for 17 critical infrastructure sectors, referred 
to as sector-specific plans. Specifically, we found that none of the 
plans fully addressed the 30 key cybersecurity-related criteria 
described in DHS guidance. We also determined that while several 
sectors' plans fully addressed many of the criteria, others were less 
comprehensive. In addition to the variations in the extent to which the 
plans covered aspects of cybersecurity, there was also variance among 
the plans in the extent to which certain criteria were addressed. For 
example, fewer than half of the plans fully addressed describing: (1) A 
process to identify potential consequences of cyber attack; or, (2) any 
incentives used to encourage voluntary performance of risk assessments. 
We noted that without complete and comprehensive plans, stakeholders 
within the infrastructure sectors may not adequately identify, 
prioritize, and protect their critical assets. Consequently, we 
recommended \16\ that DHS request that the lead Federal agencies, 
referred to as sector-specific agencies, that are responsible for the 
development of CIP plans for their sectors fully address all cyber-
related criteria by September 2008 so that stakeholders within the 
infrastructure sectors will effectively identify, prioritize, and 
protect the cyber aspects of their CIP efforts. The updated plans are 
due this month.
---------------------------------------------------------------------------
    \15\ GAO, Critical Infrastructure Protection: Sector-Specific 
Plans' Coverage of Key Cyber Security Elements Varies, GAO-08-64T 
(Washington DC; October 31, 2007); and Critical Infrastructure 
Protection: Sector-Specific Plans' Coverage of Key Cyber Security 
Elements Varies, GAO-08-113 (Washington DC; Oct. 31, 2007).
    \16\ GAO-08-113.
---------------------------------------------------------------------------
Improving Cybersecurity of Infrastructure Control Systems
    In a September 2007 report and October 2007 testimony,\17\ we 
identified that Federal agencies had initiated efforts to improve the 
security of critical infrastructure control systems--computer-based 
systems that monitor and control sensitive processes and physical 
functions. For example, DHS was sponsoring multiple control systems 
security initiatives, including efforts to: (1) Improve control systems 
cybersecurity using vulnerability evaluation and response tools; and, 
(2) build relationships with control systems vendors and infrastructure 
asset owners. However, the Department had not established a strategy to 
coordinate the various control systems activities across Federal 
agencies and the private sector. Further, it lacked processes needed to 
address specific weaknesses in sharing information on control system 
vulnerabilities. We concluded that until public and private sector 
security efforts are coordinated by an overarching strategy and 
specific information sharing shortfalls are addressed, there was an 
increased risk that multiple organizations would conduct duplicative 
work and miss opportunities to fulfill their critical missions.
---------------------------------------------------------------------------
    \17\ GAO-07-1036 and GAO-08-119T.
---------------------------------------------------------------------------
    Consequently, we recommended \18\ that DHS develop a strategy to 
guide efforts for securing control systems and establish a rapid and 
secure process for sharing sensitive control system vulnerability 
information to improve Federal Government efforts to secure control 
systems governing critical infrastructure. In response, DHS officials 
took our recommendations under advisement and more recently have begun 
developing a Federal Coordinating Strategy to Secure Control Systems, 
which is still a work in process. In addition, while DHS began 
developing a process to share sensitive information; it has not 
provided any evidence that the process has been implemented or that it 
is an effective information-sharing mechanism.
---------------------------------------------------------------------------
    \18\ GAO-07-1036.
---------------------------------------------------------------------------
Strengthening DHS's Ability to Help Recovery From Internet Disruptions
    We reported and later testified \19\ in 2006 that the Department 
had begun a variety of initiatives to fulfill its responsibility for 
developing an integrated public/private plan for internet recovery. 
However, we determined that these efforts were not comprehensive or 
complete. As such, we recommended that DHS implement nine actions to 
improve the Department's ability to facilitate public/private efforts 
to recover the internet in case of a major disruption.
---------------------------------------------------------------------------
    \19\ GAO, Internet Infrastructure: Challenges in Developing a 
Public/Private Recovery Plan, GAO-06-863T (Washington, DC: July 28, 
2006); and Internet Infrastructure: DHS Faces Challenges in Developing 
a Joint Public/Private Recovery Plan, GAO-06-672 (Washington, DC: June 
16, 2006).
---------------------------------------------------------------------------
    In October 2007, we testified \20\ that the Department had made 
progress in implementing our recommendations; however, seven of the 
nine have not been completed. For example, it revised key plans in 
coordination with private industry infrastructure stakeholders, 
coordinated various internet recovery-related activities, and addressed 
key challenges to internet recovery planning. However, it had not, 
among other things, finalized recovery plans and defined the 
interdependencies among DHS's various working groups and initiatives. 
In other words, it has not completed an integrated private/public plan 
for internet recovery. As a result, we concluded that the Nation lacked 
direction from the Department on how to respond in such a contingency. 
We also noted that these incomplete efforts indicated DHS and the 
Nation were not fully prepared to respond to a major internet 
disruption.
---------------------------------------------------------------------------
    \20\ GAO, Internet Infrastructure: Challenges in Developing a 
Public/Private Recovery Plan, GAO-08-212T (Washington, DC: Oct. 23, 
2007).
---------------------------------------------------------------------------
    In summary, DHS has developed and implemented capabilities to 
satisfy aspects of key cybersecurity responsibilities. However, it 
still needs to take further action to fulfill all of these 
responsibilities. In particular, it needs to fully address the key 
areas identified in our recent reports. Specifically, it will have to 
bolster cyber analysis and warning capabilities, address organizational 
inefficiencies by integrating voice and data operations centers, 
enhance cyber exercises by completing the identified activities 
associated with the lessons learned, ensure that cyber-related sector-
specific critical infrastructure plans are completed, improve efforts 
to address the cybersecurity of infrastructure control systems by 
completing a comprehensive strategy and ensuring adequate mechanisms 
for sharing sensitive information, and strengthen its ability to help 
recover from internet disruptions by finalizing recovery plans and 
defining interdependencies. Until these steps are taken, our Nation's 
computer-reliant critical infrastructure remains at unnecessary risk of 
significant cyber incidents.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or Members of the subcommittee may have 
at this time.
                               Appendix I

                DHS'S KEY CYBERSECURITY RESPONSIBILITIES
------------------------------------------------------------------------
                                                   Description of
             Responsibilities                     Responsibilities
------------------------------------------------------------------------
Develop a national plan for CIP that       Developing a comprehensive
 includes cybersecurity.                    national plan for securing
                                            the key resources and
                                            critical infrastructure of
                                            the United States, including
                                            information technology and
                                            telecommunications systems
                                            (including satellites) and
                                            the physical and
                                            technological assets that
                                            support such systems. This
                                            plan is to outline national
                                            strategies, activities, and
                                            milestones for protecting
                                            critical infrastructures.
Develop partnerships and coordinate with   Fostering and developing
 other Federal agencies, State and local    public/private partnerships
 governments, and the private sector.       with and among other Federal
                                            agencies, State and local
                                            governments, the private
                                            sector, and others. DHS is
                                            to serve as the ``focal
                                            point for the security of
                                            cyberspace.''
Improve and enhance public/private         Improving and enhancing
 information sharing involving cyber        information sharing with and
 attacks, threats, and vulnerabilities.     among other Federal
                                            agencies, State and local
                                            governments, the private
                                            sector, and others through
                                            improved partnerships and
                                            collaboration, including
                                            encouraging information
                                            sharing and analysis
                                            mechanisms. DHS is to
                                            improve sharing of
                                            information on cyber
                                            attacks, threats, and
                                            vulnerabilities.
Develop and enhance national cyber         Providing cyber analysis and
 analysis and warning capabilities.         warnings, enhancing
                                            analytical capabilities, and
                                            developing a national
                                            indications and warnings
                                            architecture to identify
                                            precursors to attacks.
Provide and coordinate incident response   Providing crisis management
 and recovery planning efforts.             in response to threats to or
                                            attacks on critical
                                            information systems. This
                                            entails coordinating efforts
                                            for incident response,
                                            recovery planning,
                                            exercising cybersecurity
                                            continuity plans for Federal
                                            systems, planning for
                                            recovery of internet
                                            functions, and assisting
                                            infrastructure stakeholders
                                            with cyber-related emergency
                                            recovery plans.
Identify and assess cyber threats and      Leading efforts by the public
 vulnerabilities.                           and private sector to
                                            conduct a national cyber
                                            threat assessment, to
                                            conduct or facilitate
                                            vulnerability assessments of
                                            sectors, and to identify
                                            cross-sector
                                            interdependencies.
Support efforts to reduce cyber threats    Leading and supporting
 and vulnerabilities.                       efforts by the public and
                                            private sector to reduce
                                            threats and vulnerabilities.
                                            Threat reduction involves
                                            working with the law
                                            enforcement community to
                                            investigate and prosecute
                                            cyberspace threats.
                                            Vulnerability reduction
                                            involves identifying and
                                            remediating vulnerabilities
                                            in existing software and
                                            systems.
Promote and support research and           Collaborating and
 development efforts to strengthen          coordinating with members of
 cyberspace security.                       academia, industry, and
                                            Government to optimize
                                            cybersecurity-related
                                            research and development
                                            efforts to reduce
                                            vulnerabilities through the
                                            adoption of more secure
                                            technologies.
Promote awareness and outreach...........  Establishing a comprehensive
                                            national awareness program
                                            to promote efforts to
                                            strengthen cybersecurity
                                            throughout Government and
                                            the private sector,
                                            including the home user.
Foster training and certification........  Improving cybersecurity-
                                            related education, training,
                                            and certification
                                            opportunities.
Enhance Federal, State, and local          Partnering with Federal,
 government cybersecurity.                  State, and local governments
                                            in efforts to strengthen the
                                            cybersecurity of the
                                            Nation's critical
                                            information infrastructure
                                            to assist in the deterrence,
                                            prevention, preemption of,
                                            and response to terrorist
                                            attacks against the United
                                            States.
Strengthen international cyberspace        Working in conjunction with
 security.                                  other Federal agencies,
                                            international organizations,
                                            and industry in efforts to
                                            promote strengthened
                                            cybersecurity on a global
                                            basis.
Integrate cybersecurity with national      Coordinating and integrating
 security.                                  applicable national
                                            preparedness goals with its
                                            National Infrastructure
                                            Protection Plan.
------------------------------------------------------------------------
Source: GAO analysis of the Homeland Security Act of 2002, the Homeland
  Security Presidential Directive--7, and the National Strategy to
  Secure Cyberspace.

                              Appendix II

        KEY ATTRIBUTES OF CYBER ANALYSIS AND WARNING CAPABILITIES
------------------------------------------------------------------------
                Capability                           Attribute
------------------------------------------------------------------------
Monitoring...............................  --Establish a baseline
                                            understanding of network
                                            assets and normal network
                                            traffic volume and flow.
                                           --Assess risks to network
                                            assets.
                                           --Obtain internal information
                                            on network operations via
                                            technical tools and user
                                            reports.
                                           --Obtain external information
                                            on threats, vulnerabilities,
                                            and incidents through
                                            various relationships,
                                            alerts, and other sources.
                                           --Detect anomalous
                                            activities.
Analysis.................................  --Verify that an anomaly is
                                            an incident (threat of
                                            attack or actual attack).
                                           --Investigate the incident to
                                            identify the type of cyber
                                            attack, estimate impact, and
                                            collect evidence.
                                           --Identify possible actions
                                            to mitigate the impact of
                                            the incident.
                                           --Integrate results into
                                            predictive analysis of
                                            broader implications or
                                            potential future attack.
Warning..................................  --Develop attack and other
                                            notifications that are
                                            targeted and actionable.
                                           --Provide notifications in a
                                            timely manner.
                                           --Distribute notifications
                                            using appropriate
                                            communications methods.
Response.................................  --Contain and mitigate the
                                            incident.
                                           --Recover from damages and
                                            remediate vulnerabilities.
                                           --Evaluate actions and
                                            incorporate lessons learned.
------------------------------------------------------------------------
Source: GAO analysis.


    Mr. Langevin. Thank you, Mr. Powner, for your testimony.
    The Chair now recognizes Mr. Lewis to summarize the 
Commission's statement for 5 minutes. Welcome.

 STATEMENT OF JAMES A. LEWIS, PROJECT DIRECTOR, COMMISSION ON 
CYBERSECURITY FOR THE 44TH PRESIDENCY, CENTER FOR STRATEGIC AND 
INTERNATIONAL STUDIES; ACCOMPANIED BY LIEUTENANT GENERAL HARRY 
 D. RADUEGE, JR., CO-CHAIRMAN, COMMISSION ON CYBERSECURITY FOR 
  THE 44TH PRESIDENCY, CENTER FOR STRATEGIC AND INTERNATIONAL 
 STUDIES; AND PAUL KURTZ, MEMBER, COMMISSION ON CYBERSECURITY 
FOR THE 44TH PRESIDENCY, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Mr. Lewis. I thank the committee for this opportunity to 
testify. Our goal is to identify actions that the next 
administration can take in its first hundred days to improve 
U.S. national security and global competitiveness.
    In doing this, we would begin by noting that the next 
administration should build on the work of the comprehensive 
National Cybersecurity Initiative. It is a good start. Let me 
note that you, Mr. Chairman, and your colleague, Congressman 
McCaul, have provided invaluable support and guidance during 
the course of our work. I know a lot of times people say that, 
but I really mean it. It has really been a lot easier having 
you two. If I ever do another Commission, I want you to be on 
it. It has really helped. Your leadership has been crucial.
    I would also like to note that we have received tremendous 
assistance from the Departments of Defense, Homeland Security, 
the intelligence community, and the FBI. So with all this help, 
it has been very valuable.
    We are still working, as you noted. We hope to be done by 
November. But we are in a position where we can discuss some of 
our preliminary findings. I will begin by stating our two most 
important findings.
    The first is that cybersecurity is now one of the most 
important national security challenges facing the United 
States. This is not a hypothetical challenge. We are under 
attack and we are taking damage.
    Our second finding is that the United States is 
disorganized and lacks a coherent national strategy. Our 
recommendations call for the use of all instruments of U.S. 
power, diplomatic, military, economic, law enforcement, and 
intelligence, to secure cyberspace. This new strategy should be 
one of the first documents that the next administration issues.
    We have looked at military activities in cyberspace. Most 
of these are classified. However, we will be able to discuss 
several important topics. The most important conclusion that we 
have reached regarding military activity is that credible 
offensive capabilities are necessary to deter potential 
attackers.
    A comprehensive strategy for cyberspace creates an 
important challenge, however. We have found in our interviews 
and in our discussions that the ability to organize and 
coordinate Government activities for cybersecurity is 
inadequate. The central problems are lack of a strategic focus, 
overlapping missions, poor coordination, and diffuse 
responsibility. Our interviews have suggested that while DHS 
has improved in recent years, oversight of cybersecurity must 
move elsewhere.
    We have considered many alternatives, such as whether it 
should be the intelligence community or DOD or other agencies. 
The conclusion that we have reached is only the White House has 
the authority needed for cybersecurity. This is not a call for 
a czar. Czars in Washington tend to be marginalized. Longing 
for a czar is a symptom of dissatisfaction with how our 
Government works now. One of the things we hope to do is 
develop recommendations for how to use technology to improve 
security and increase efficiency in Government.
    On the subject of public-private partnerships, we found 
almost universal recognition that existing partnerships are not 
meeting the needs of either the Government or the private 
sector. Our work concentrated on two problems. The first is the 
need to rebuild trust. The second is to focus on 
infrastructures that are truly critical for cyberspace. For us 
those are the electrical power sector, telecommunications, and 
finance. We heard in many interviews that trust is the 
foundation of a successful partnership. We also heard that 
despite good intentions on all sides, trust between Government 
and the private sector has declined. Our recommendations will 
call for a restructuring to rebuild trust.
    Our group had a long debate over the role of regulation and 
whether there has been market failure. Our conclusion is that 
greater regulation is necessary for critical cyber 
infrastructure, but the prescriptive command and control 
regulation will not increase security. Based on this 
committee's hearings with NERC and FERC, we are exploring new 
approaches to regulation.
    We also concluded that cybersecurity requires better 
authentication. We know this is a sensitive subject, and we 
realize that any recommendation will need to ensure that 
privacy and confidentiality are protected. We heard many times 
in our interviews that key laws are outdated. The next 
administration, we will recommend, should work with Congress to 
revise investigative authorities, modernize Clinger-Cohen and 
FISMA, and remove the distinction between national security and 
civil agency systems found in many laws.
    Our interviews suggest that the Federal Government can use 
its powers to change market conditions, it can increase 
resources available for cybersecurity by supporting training 
and education, it can expand research, it can encourage the 
deployment of more secure products and protocols.We will 
recommend that the new administration build on OMB's Federal 
Desktop Core Configuration and use Government and industry 
partnership to make better products for IT security.
    Let me tell you what our next steps are. I hope you realize 
this was a cursory survey of where we are coming out in the 
Commission. There are other details that will come out in 
questioning. Our goal is to produce implementable 
recommendations that could guide both the legislative agenda 
and Presidential policy. We are on track to have this done by 
November.
    Several difficult issues remain, including how to move from 
Industrial Age Government to one better suited to the 
Information Age, how to scope and design a new approach to 
regulation, where to locate authorities for cyberspace, and how 
to make public and private partnerships more efficient. I am 
confident that with your help and guidance we can resolve these 
issues and offer recommendations to the next administration, 
the Congress, and the American people.
    Thank you again for your support and for this opportunity. 
I look forward to your questions.
    Mr. Langevin. Thank you, Mr. Lewis, for your testimony.
    [The statement of Mr. Lewis follows:]

                  Prepared Statement of James A. Lewis
                           September 16, 2008

    I thank the committee for the opportunity to testify on the work of 
the CSIS Cybersecurity Commission on Cyber Security for the 44th 
Presidency. As you know, this Commission was established a year ago. It 
held its first meeting in November 2007. Our goal is to identify 
concrete actions that the next administration can take to improve 
cybersecurity. We are composed of forty individuals with extensive 
experience in cyber security and in Government operations, and our work 
has been supported by a number of eminent experts in this field. We 
have also received invaluable assistance from the Department of 
Defense, the intelligence community, the FBI and from elements of the 
Department of Homeland Security. Let me also note that you, Mr. 
Chairman, and your colleague Representative McCaul, have provided 
essential support and guidance during the course of our work. Your 
leadership has been crucial for shaping the report and in moving the 
Commission forward.
    The starting point for the Commission's work was that the lack of 
cyber security and the loss of information were doing unacceptable 
damage to the United States. It has been 10 years since the first 
reports called attention to America's vulnerability in cyberspace. 
Unfortunately, the situation has gotten worse, not better, during the 
intervening decade. That cyberspace now provides the foundation for 
much of our economic activity is not readily apparent. However, those 
who wish to do harm to the United States have not failed to notice the 
opportunities created by the weaknesses of U.S. networks. There has 
been damaging losses of valuable information. These losses occurred in 
both the Government and the private sector, creating major risks for 
national security and doing major damage to U.S. global 
competitiveness. We are also deeply concerned by the idea that these 
intruders, since they were able to successfully enter U.S. networks to 
steal information without being detected, could just as well be leaving 
something behind, malicious software that could be triggered in a 
crisis to disrupt critical services or infrastructure.
    I should note that when we began our work, the administration had 
not announced its National Cyber Security Initiative. We appreciate the 
willingness of some Departments to share the details of this highly 
classified activity to those of us who hold the appropriate clearances. 
As a group, we believe this initiative has begun to make a tremendous 
contribution to improving U.S. national security and we applaud those 
who are struggling to implement it. We have adjusted our work in light 
of the Initiative; it has brought progress, but there is still much 
work to be done.
    The CSIS Cyber Commission hopes to have finished its work by 
November of this year. So our discussion today must necessarily reflect 
that in some instance, the group has not finished its work on key 
recommendations. What I and my colleagues can do, however, is brief the 
committee on the issues we have identified and some of the options we 
are considering.
    Let me begin by noting our two most important findings. The first 
is that cyber security is now one of the most important national 
security challenges facing the United States. This is not some 
hypothetical catastrophe. We are under attack and taking damage. Our 
second finding is that the United States is not organized and lacks a 
coherent national strategy for addressing this challenge.
    These two findings inform our work and our recommendations, and the 
Commission has identified several broad areas where we recommend that 
the next administration take immediate action. These are to develop a 
comprehensive national security strategy for cyberspace; to reorganize 
the governance of cyberspace to provide accountability and authority; 
to rebuild relationships with the private sector; to modernize 
cyberspace authorities; and use regulation and Federal acquisitions to 
shape markets.

                           NATIONAL STRATEGY

    In light of our conclusion that cyberspace must now be part of that 
national security strategy, our recommendations call for the use of all 
instruments of U.S. power to secure cyberspace. We identify five 
principle instruments--diplomatic, military, economic, law enforcement 
and intelligence--to achieve this and will recommend that the next 
administration make use of them in a coordinated and well-resourced 
national approach.

                         DIPLOMATIC INITIATIVES

    The diplomatic aspects of cyber security have been among the least 
developed elements of U.S. policy. Our vision of a diplomatic strategy 
involves advocacy, cooperation and norms. It is patterned after the 
U.S. experience in building international cooperation in non-
proliferation. Increasingly, all nations and all peoples depend on 
cyberspace to conduct their daily affairs and this provides 
opportunities for cooperation. We will recommend that the United States 
advocate measures to secure cyberspace in every multilateral initiative 
where it is appropriate, just as we have advocated measures to advance 
nonproliferation or to combat terrorism.

                          MILITARY AND DEFENSE

    Much of the discussion of the military aspects of cybersecurity is 
necessarily classified. This limits what our Commission can say on 
offensive information warfare. However, we discussed several essential 
topics. These included how to improve deterrence, how to link strategy 
to an appropriate doctrine for use, and how to train and equip forces. 
The most important conclusion we reached is that credible offensive 
capabilities are necessary to deter potential attackers.
    The United States has a doctrine for military operations in 
cyberspace, but we believe this doctrine will need to be expanded if it 
is to be effective. Doctrine provides guidance on the exercise of the 
various and overlapping legal authorities that apply to cyberspace, 
identifying when the use of law enforcement, military or intelligence 
authorities are appropriate. An expanded doctrine should specify 
relationships among agencies and lay out the decisionmaking process for 
various actions. Our initial conclusion is that the next administration 
should refine existing doctrine and create processes to work through 
the issues of deterrence and strategic operations in cyberspace.

                             ECONOMIC TOOLS

    Our review suggests that the United States would benefit from 
making greater use of the economic tools available to it. These tools 
include using international economic programs and organizations to 
promote cyber security, to develop norms and sanctions for 
international behavior, to work with international standards bodies and 
to invest in research and development in cybersecurity. A concrete 
example of this would be our bilateral trade negotiations with Russia. 
While the Russians had to improve their performance to many legal and 
trade requirements, they were not asked for better national performance 
in securing cyberspace. This must change.

                    INTELLIGENCE AND LAW ENFORCEMENT

    Our review of cybersecurity efforts found that the intelligence 
community has led the efforts to improve U.S. national cybersecurity. 
To foreshadow our discussion of organizational issues, we considered 
recommending that the intelligence community be formally given the lead 
role in securing cyberspace, but ultimately decided that this would be 
politically infeasible. Our recommendations emphasize that its primary 
role in securing cyberspace will be to support diplomatic, military, 
and domestic elements of a comprehensive strategy.
    We were also impressed by the work of the Federal law enforcement 
community. Our recommendations will emphasize that an important 
activity for law enforcement is to work with other nations, as part of 
a larger diplomatic strategy, to shrink the ``sanctuaries'' available 
for cybercrime. Another essential law enforcement function is to ensure 
adequate protections for privacy and civil liberties in any cyber 
initiative. A comprehensive response to cyber attack need not come at 
the expense of civil liberties, and success will depend in some measure 
on the ability of the Government to assure Americans that their rights 
are being safeguarded. We believe this assurance requires a commitment 
from the White House and vigorous congressional oversight.
    We believe that the new administration has an opportunity to build 
on the NCSI to create a coherent national strategy. This strategy 
should be one of the first policy documents that it issues. Moving to a 
strategy for cyberspace that focuses on using all the tools of national 
power creates an important challenge however. We found that the current 
ability to organize and coordinate the use of diplomatic, military, 
economic, intelligence and law enforcement activities is inadequate. 
This will need to change improve cybersecurity.

                              ORGANIZATION

    It did not take long for our group to conclude that our national 
efforts in cyberspace are disorganized. None of the existing 
cybersecurity structures are adequate. We found that the central 
problems in the current Federal organization for cybersecurity are the 
lack of a strategic focus, overlapping missions, poor coordination and 
collaboration, and diffuse responsibility. Much of the problem resides 
with the performance and capabilities of the Department of Homeland 
Security. While the Department's performance has improved in recent 
years, making this Department more effective will be an immediate task 
for the next administration. However, our view is that any improvement 
to the Nation's cybersecurity must go outside of DHS to be effective, 
and this will require rethinking the roles of DHS and the Homeland 
Security Council.
    Given DHS's weaknesses, we considered a number of alternatives. The 
intelligence community has the necessary capabilities but giving it a 
lead role poses serious constitutional problems. DOD is well suited to 
manage a national mission, but giving it the lead suggests a 
militarization of cyberspace. We concluded that only the White House 
has the necessary authority and oversight for cybersecurity.
    Simply appointing a czar, however, will not work. Czars in 
Washington tend to be either temporary or marginalized. Longing for a 
czar is a symptom of our industrial-age governmental organization. We 
are developing recommendations on how to leverage information 
technology to increase security while improving the efficiency, and 
transparency of Government operations. Our thinking on this has been 
shaped in part by the implementation of the Intelligence Reform and 
Terrorist Prevention Act, which imposed a new, more collaborative 
structure on the intelligence community. This is still a work in 
progress, but the IC's experience shows that the combination of a 
congressional mandate, adequate authorities, and a focus on 
``enterprise'' solutions (e.g. those that cut across traditional agency 
barriers) can improve Federal performance.
    We believe that the next administration's response to the 
cybersecurity challenge provides an opportunity to test new approaches 
to Federal organization that better leverage the use of cyberspace and 
social networking technologies to improve Government performance. It is 
time to move to an information-age Government. The Commission is 
considering several options for how best to achieve this. Our view is 
that this new model of governance must be based in the Executive Office 
of the President and make collaboration among agencies one of its 
missions.

                      PUBLIC-PRIVATE PARTNERSHIPS

    The committee knows that the United States works with a variety of 
groups created to improve information sharing or build public-private 
partnerships. Based on a series of interviews, we found almost 
universal recognition that the status quo is not meeting the needs of 
Government or the private sector with respect to collaboration.
    Our work concentrated on two problems that must be addressed if 
there is to be improvement. The first is to rebuild trust between the 
Government and the private sector. The second is to focus on 
infrastructures that are truly critical for cybersecurity--the sectors 
that provide the large national networks that create cyberspace--
telecommunications, electricity, and finance.
    We heard in numerous interviews that trust is the foundation of a 
successful Government/private sector relationship. We also heard that 
in the last few years, despite the profusion of advisory bodies and 
despite good intentions on all sides, trust between Government and the 
private sector has declined. Our recommendations will call for 
simplifying structure and building trust relationships. Information 
sharing, which drove much of the original thinking about how to work 
with the private sector, should become a secondary goal in our view.

                               REGULATION

    Our group had a long debate over the role of regulation and whether 
there has been market failure in cybersecurity. Our conclusion is that 
greater regulation is necessary, but that prescriptive, command-and-
control regulation will not produce a higher standard for security in 
critical cyber infrastructure. We are exploring a new approach to 
regulation that builds on and blends the strengths of the public and 
private sectors.
    Based on this committee's hearings on NERC and FERC, we are 
exploring approaches that build on your vision of how NERC/FERC should 
work. This approach would task existing regulatory agencies for 
telecommunications, finance, and electrical power to devise regulations 
that embed cybersecurity requirements in a regulatory and compliance 
framework. To achieve this while avoiding the drawbacks of regulation, 
the Federal Government must find new ways to coordinate among agencies. 
We plan to recommend a ``federated'' approach to regulation that 
reduces the fragmentation and inconsistency found in cybersecurity 
regulation.

                        IDENTITY AND ATTRIBUTION

    One of the new regulations we think are necessary for cybersecurity 
involve authentication of identity for critical infrastructures in 
cyberspace. The current internet is anonymous. Anonymity can preserve 
privacy and civil liberties, but it can also enable malicious behavior. 
We have concluded that the Government must require better 
authentication for critical infrastructure, and that this can be done 
in a way that protects privacy and confidentiality.
    We started with the principle that unknown individuals or 
individuals using fraudulent identities should not be able to easily 
access critical infrastructure. We are developing a technology-neutral, 
``opt-in'' approach to digital credentials for critical infrastructure, 
based on precedents from the work of the FDIC and the experience of the 
Department of Defense.
    Our view is that it will be feasible to create a system where those 
who did not want to be authenticated could choose not to participate 
without penalty, but those who offer on-line services and wished to 
restrict them to authenticated individuals would not have that right 
denied to them. We recognize the sensitivity of any recommendation to 
require authentication and believe that no measure that does not 
adequately protect civil liberties will succeed, but we have concluded 
that security cannot be improved without better authentication of 
identity.

                  MODERNIZE AUTHORITIES FOR CYBERSPACE

    We heard many times in our interviews that a legal structure that 
is a decade or two old ill-serves the Nation when it comes to 
cybersecurity. Some of this is due to transaction speed--an event in 
cyberspace may happen in seconds, but determining which authority to 
use in response can take hours or days (and we heard that the 
``default'' authority is Title 3--law enforcement--as this is the set 
of authorities that is least likely to pose risks for civil liberties).
    We believe that the next administration should work with Congress 
to revise three authorities: Title 3 investigative authorities related 
to cyberspace; the Clinger-Cohen Act and the Federal Information 
Security Management Act; and the distinction in law between national 
security and civilian agency systems currently embedded in many 
authorities. Revising existing authorities to serve the Nation 
effectively in cyberspace will be a complex legal operation that will 
require Congress and the new administration to work closely together, 
but it is an unavoidable challenge.

                        RESOURCES AND INCENTIVES

    Our discussions and interviews suggest that the Federal Government 
has not made full use of its powers to change market conditions in ways 
that will improve cybersecurity. It can increase the inputs and 
resources available for cybersecurity by supporting training and 
education. It can expand and focus its investment in research. It can 
encourage the deployment of more secure products and protocols by using 
its purchasing power--the Federal Government does not have a dominant 
market share in IT, but it is the largest single customer for most IT 
products and it can use this to move the market in positive directions.
    Our recommendations will call for changes in acquisitions 
requirements, collaborative work with companies on standards and best 
practices, and investment in human capital and in research to 
accelerate the rate at which we secure cyberspace. In this, we will 
recommend that a new administration build off OMB's Federal Desktop 
Core Configuration initiative.
    Cooperation with private sector will be essential for success. 
Leveraging Government and industry partnerships can produce major 
improvements in security. Moreover, the development of more secure 
configurations must involve those international standards bodies who 
have been working in this area.
    Our review suggests that the United States would benefit if it 
developed a national cyber education and training program. Our 
recommendation is that the United States develop an institutionalized 
program that establishes minimal standards for skills and knowledge 
sufficient to meet the cyber mission and enable attractive career 
paths.
    The Federal Government is one of the largest purchasers of 
telecommunications services in the world--perhaps the largest. A 
Presidential mandate that the United States would only contract with 
telecommunications carriers that use DNS SEC would rapidly drive the 
market and provide benefits beyond the Federal Government. This 
recommendation is attractive because it could also be adopted by State 
and local governments.

                     INFORMATION ASSURANCE METRICS

    A central part of any effort to judge whether a product or 
initiative has improved security is to identify or develop the metrics 
that can measure progress. There is no doubt that achieving compliance 
with best security practice is a basic foundation that is valuable and 
should be measured--what we lack is the ability to go beyond that with 
meaningful measures of security that inform the system owner on their 
actual risk profile, and how best to make intelligent investments in 
making the IT system more secure and reducing the overall risk.

            ASSURING INDUSTRIAL CONTROL SYSTEM CYBERSECURITY

    Industrial Control Systems (also known as SCADA) are an integral 
part of electric power, oil, water, gasoline, chemicals, manufacturing, 
mining, transportation, food processing, etc. by providing control and 
safe shutdown of the processes for these facilities. Computer cyber 
vulnerabilities can affect the safe, functional performance of these 
systems and processes. We are working with experts in this field to 
develop recommendation on how to improve the security of ICS. These 
recommendations will probably be linked to our recommendation to 
develop a new regulatory approach for cyber security.

               RESEARCH AND DEVELOPMENT FOR CYBERSECURITY

    Although technology is only a part of the cybersecurity challenge, 
the next administration has an opportunity to use research and 
development to improve the security of computer and communications 
systems and the information created and stored within them.
    Our initial work suggests that the United States needs a 
coordinated and strategic focus for Federal investments in 
cybersecurity R&D. Both basic research--often performed at universities 
and with benefits realized over the long term--and applied research--
which uses existing technology to address near-term problems--must be 
part of this strategy. Just as the Department of Defense has 
successfully marshaled R&D to provide military advantage to the United 
States since the 1940's, the United States must harness R&D to 
America's cybersecurity needs.
    One area we are considering for R&D involves re-engineering the 
internet, which operates with protocols written in the 1970's and 
1980's. A simple analogy would be to ask if it is safe to drive a 30-
year-old car that still uses its original equipment. WE believe it is 
time to upgrade. Many of outside experts suggested that we remember 
that cyberspace is a human construct and that the internet's 
architecture, with research and international cooperation, can be 
significantly improved. This is a bold and complex recommendation that 
will require a coordinated effort managed by the White House as part of 
a larger strategy, but it is not out of reach.

                               NEXT STEPS

    The Commission's goal is a package of implementable recommendations 
that could help to guide both a legislative agenda and presidential 
policy documents. We are on track to have this done within the next 2 
months. Several difficult issues remain, including how to move from an 
industrial age model of governance to one better suited for the 
information age, how to scope and design a new approach to regulation, 
where to locate the authorities for cyberspace within the Federal 
Government, and how to make public-private partnership more efficient. 
I am confident that with your help and guidance we can resolve these 
issues and offer our recommendation to the next administration, the 
Congress and the American public. Thank you again for this opportunity 
and I would be happy to take any questions you may have.

    Mr. Langevin. Before I go to questions, I just wanted to 
mention that there will be a continuation of today's hearing 
basically on Thursday, the same subject of the CSIS 
Commission's preliminary findings, that takes place on Thursday 
before the House Permanent Select Committee on Intelligence. I 
suspect that this hearing and the one on Thursday will be just 
the first of many, both on the work of the CSIS Commission, but 
on cybersecurity overall as we head into the next Congress.
    With that, I want to thank the witnesses for their 
testimony. I will remind each of the Members that they will 
have 5 minutes to question the panel. I will now recognize 
myself for questions.
    Let me just start with a few general questions for the 
panel. Based on your professional judgment and knowledge of 
DHS's state of preparedness, are we adequately prepared for a 
major cyber attack? Is the U.S. Government effectively 
organized to meet that cybersecurity threat? Why has DHS 
struggled to fill its mission? Finally, should DHS lead the 
cybersecurity mission in the U.S. Government?
    It is a general question for the panel, so whoever would 
like to----
    Mr. Powner. Mr. Chairman, based on the work we have done 
for you over the years, I think the short answer is that we are 
not prepared for major significant events, especially when you 
start looking at multiple events. I will point to a couple key 
bodies of work that we focused on. If you looked at a major 
internet disruption, are we prepared to really deal with a 
major internet disruption from a public-private point of view? 
No. If you look at the cyber exercises that have been conducted 
to date, there are a lot of lessons learned that have come out 
of those, a lot of basic things that still need to be in place: 
communications, how we involve law enforcement and those types 
of things. So we are not well prepared today.
    Mr. Lewis. I would agree with that, Mr. Chairman. We are 
not prepared. I think DHS has struggled, for a number of 
reasons. One of the most important is that it really doesn't 
have the authority to direct other departments and agencies. If 
anything, its authority has probably declined as other 
departments have moved out on this issue. So it is hard for 
us--I began in this effort by thinking that we should 
strengthen DHS. We did not receive much encouragement when we 
put that forward to either the experts we talked to, to people 
within Government, or to even members of my own Commission. So 
I was shot down by my own Commission.
    Should it lead? There are things that only DHS can do, and 
it is appropriate to locate them there. We are in the process 
of trying to determine what those are. But our view, I think I 
speak for the Commission, is that many of these functions need 
to move to the White House. This is now a serious national 
security problem. It needs to be treated as such. It needs to 
be taken under the leadership of the National Security Council. 
So our view is while there are things DHS should do, 
cybersecurity now needs to receive White House attention.
    General Raduege. I would just add, Mr. Chairman, that I 
believe in my travels I have heard numerous times other nations 
looking to the United States for leadership in cybersecurity 
strategy. I think that just underlines the fact that the 
internet is certainly a global network, and it has 
international proportions. So with what Dr. Lewis has just 
mentioned, I would add that we need an international focus on 
this. It is a national security issue, but it has international 
proportions.
    Mr. Kurtz. Just to build on what others have said, as Jim 
pointed out, this is really no longer just a homeland security 
issue, it is a national security issue. That is, if you will, a 
change significantly since DHS was stood up. Now we have 
espionage on a massive scale by our adversaries. That I think 
takes it really--much of the responsibility out of the hands of 
the Department of Homeland Security. That is not their fault.
    However, point No. 2 is there really is no one in charge 
right now at DHS. That is why they have struggled. When you 
look across the spectrum at DHS, you have an Under Secretary, 
you have an Assistant Secretary for Policy. We have others that 
are supposedly working side-by-side, but really are not working 
side-by-side. It is as though you have several people with 
their hands on the steering wheel, and there is really no 
common direction as to which way to go.
    Also, as General Raduege said, we have several other 
agencies that have assumed significant responsibilities. So 
someone has got to be in charge.
    The final point is--and that we can't lose sight of in this 
reorganization--is how do we have someone in charge but still 
recognize that this is the information infrastructure we are 
talking about? So traditional command-and-control that we are 
used to seeing inside DOD and other places may not be the most 
appropriate way to go; that we need to establish better means 
of collaboration. That is one of the issues that the Commission 
has looked at.
    Mr. Langevin. Let me--it is probably a good segue into my 
next question--it is a known fact in Washington whoever 
controls the purse strings controls the mission. This might 
explain why DHS as the coordinating body has been so very 
unsuccessful in achieving goals and securing cyberspace. Who 
should have budget authority over the Federal Government's 
cybersecurity missions? Where should this authority lie? What 
role should OMB have?
    We can just go right down the line again if you would like 
to have your input.
    Mr. Powner. Mr. Chairman, we look at and I look at the 
entire IT budget of the Federal Government, $70 billion that we 
spend. In terms of authority, DHS does not have the purse 
strings, that is clear. The authority is dispersed. Then what 
happens not only in cybersecurity but in the whole IT arena is 
we don't have enough oversight on how that money is spent.
    So I think going forward, consistent with some of the 
Commission's recommendations, we ought to look at creating 
organizations that control the purse strings as well as have 
the appropriate authorities moving forward.
    Mr. Lewis. Thank you, Mr. Chairman. That is a good 
question. It is one that we struggled with in the Commission. I 
am sure that people at OMB will be happy to know that we moved 
the budget authorities all around the Federal Government for a 
while, and I don't think we have quite figured out where to put 
them.
    What I will say, though, is I think the sense of where we 
are coming out is that, you know, OMB has to be the place that 
coordinates budgets. That is what they do for the President. 
But we do need somebody that provides oversight, coordination, 
collaboration among Federal agencies. This is also a White 
House function, but not an OMB function.
    So what we are suggesting is that when it comes to budget 
functions, keep them at OMB. When it comes to policy functions, 
move them somewhere into the White House. We are looking at a 
number of suggestions on where that should be. But currently 
OMB kind of acts in both a policy role and a budget role, and 
we think it is time to focus them on their budget 
responsibilities.
    Mr. Langevin. Are you suggesting that OMB would ultimately 
have veto power over policy since they control the budget, or 
how would that work?
    Mr. Lewis. I think we want it to work more like other 
agencies. So if I can use the example of the work that has been 
done to reform the intelligence community; which is, you have a 
new figure at the top of the different agencies in the 
intelligence community, the Director of National Intelligence. 
That director coordinates the budget for all those agencies and 
then works with OMB to come up with the President's submission 
to Congress.
    So I think what we are looking for is something that will 
reach across all the agencies but continue the pattern we have 
now. Some of the reasons we are suggesting that is only for 
practical reasons. OMB has the expertise. They have the 
oversight of the whole budget. It can work in other agencies 
such as Defense or the intelligence community when they are 
strong. So I think, create the strong entity and this will not 
be an issue.
    General Raduege. I would say that the example of Director 
of National Intelligence is new. I believe we have seen areas, 
as Dr. Lewis has mentioned, that have brought new insight and 
perspective to 16 formerly intelligence community activities 
that were acting without an overseer. I think there has been 
good progress made to establish common priorities and common 
direction across the 16 independent intelligence activities 
with the DNI oversight.
    Mr. Kurtz. Just to add on once again to what has been said, 
the question of OMB is a bit complicated when it comes to 
information systems because it is not only the budgetary 
authority they have, but it is, if you will, the authority they 
have under FISMA to set policy on information systems. So that 
gives them a little bit of a different edge than we find in 
many other situations. I think that situation needs to be 
reconciled.
    The Commission may well come out that the FISMA-related 
authorities of OMB maybe need to be pulled out and placed into 
another--placed into another entity perhaps associated with the 
White House.
    When it comes to the budget-related issues, though, the 
ODNI model is good, but I would offer two other similar models, 
and that is the drug czar, where the drug czar had, if you 
will, oversight of the budget, could put together specific 
programs, make sure agencies were adequately funding them.
    Similarly, that was done in the case of counterterrorism, 
informally. When I was in the White House and we got into 
counterterrorism-related budgets, when we saw agencies that 
weren't necessarily doing enough, we would go directly to OMB 
and to the agencies and say we really needed to bolster these 
programs. It worked fairly effectively when we had proper 
support from others in the West Wing.
    Mr. Langevin. Thank the panel for their answers to those 
questions. The Chair now yields to the Ranking Member for 5 
minutes for questions.
    Mr. McCaul. Thank you, Mr. Chairman, thank you again for 
your great leadership, as I mentioned in my opening statement.
    I agree, Mr. Kurtz, it is no longer just a homeland 
security issue, this is a national security issue that doesn't 
really know borders. There are no borders to cyberspace. It is 
international in its scope. We have seen the vulnerabilities in 
terms of shutting down power grids, the financial sectors, the 
aviation sectors, the potential damage that could be done.
    I see my good friend and colleague Al Green has joined us, 
representing the Houston area. We have seen first-hand how the 
natural disasters I mentioned in my opening statement have 
caused tremendous damage, destruction, loss of human life. This 
is again a man-made threat.
    In our hearings the one thing that seemed like a common 
theme was that no one--who is in charge was the question. Even 
though I think we tried to relegate a lot of that authority to 
DHS, the authority wasn't direct. The coordination has not been 
where we would like it to be. Certainly, with respect to the 
DOD and the NSA, you have such great expertise in this area in 
terms of the operations side. We didn't see the coordination 
that I frankly would have liked to have seen better 
coordination between those who know how to do this offensively 
on the operations side and those who need to do this 
defensively to protect the United States.
    Let me just add to this as well just the massive intrusions 
that we have seen in the Federal networks and the amount of 
information, data that has been stolen. I would like to know 
how these recommendations will help prevent that type of 
intrusion that we have seen more in the form of espionage. The 
cyber warfare issues arise.
    Let me say also that I am very pleased with these 
recommendations in terms of putting somebody that has the 
President's ear in charge of this, so it elevates this to the 
Presidential level. I think that has been somewhat lacking. I 
think that will provide the coordination necessary between all 
these relevant agencies.
    How we do that, whether it is in the NSC or putting an 
office in the Executive Office of the President, I think all 
those are very good ideas that I know you are entertaining and 
have put forth. How do these make us safer?
    Then, General Raduege, you talked, I thought very 
importantly, about the international focus. What is the 
vehicle, what would be the vehicle for coordinating with other 
countries that we believe to be friendly? There are a lot of 
countries that aren't friendly to us that are trying to get 
this technology offensively.
    General Raduege. Thank you for that question, Mr. McCaul. 
As I have traveled and talked to other leaders in other 
Nations, they are looking for answers in preparing their own 
cybersecurity strategies. So a simple question that they would 
ask me was who should we come to talk to in the United States 
that we can talk with about your overarching strategy for 
protecting cyberspace? That was a very difficult question, 
because I reflected on the number of activities and bodies and 
organizations that have a piece. But there was never one place 
that I could recommend that they go to talk to to get the 
overarching view that you would work, initially at least, 
across international borders. So there was no one individual 
who had the perspective of the entire national perspective and 
strategy over the United States.
    So that is why our recommendations of our Commission was to 
have someone that really could speak as the authority, and with 
the President's ear, to know that what we were telling other 
Nations as far as our priority of this very important activity 
is at the Presidential level, and this is where you can get 
your answers, and this is the kind of strategy that we have, 
and let's work together across borders, national borders, in 
securing cyberspace as a global capability for all of us.
    Mr. McCaul. Thank you, General Raduege.
    Dr. Lewis, you said we are not prepared today. I tend to 
agree with that assessment to some extent. With respect to the 
private sector, that is a tremendous challenge. I think your 
words were we need to restore the trust. I agree the sharing of 
the information and the coordination with the private sector 
has not been where it needs to be, I think, to adequately 
protect this country.
    The idea of sharing information is a difficult one. After 
9/11, we had sharing of information between the intelligence 
side, the law enforcement side, the breaking down the walls of 
communication, you know, enhancing communications. You run into 
some problems with the private sector. I wanted to get your 
input from the Commission's recommendations on how to most 
effectively enhance that coordination and sharing of 
information.
    Two major hurdles. One is when you are dealing with the 
intelligence community you have clearances and you have 
classified information. Second, a private entity, a business, 
is going to be reluctant to share with the Federal Government 
information, and particularly information regarding 
vulnerabilities within their company that they have witnessed, 
without adequate protection that that will not get somehow 
leaked or be accessible to some sort of requests from the 
Federal Government. How do you propose to overcome those or 
meet those challenges and overcome those hurdles?
    Mr. Lewis. Thank you. We had a long series of discussions 
with many people involved in the current partnerships 
organizations. We also talked with several of the leaders of 
the British Center for the Protection of National 
Infrastructure on how they do public-private relationships. We 
talked with a number of companies that aren't involved. So we 
did a lot of interviews on this, and we did hear some common 
messages.
    I think where we came out was, first, you need to 
restructure. You know, there are groups, ISACs, SECs, these 
have a function in supporting DHS. They don't do what we need 
to do in cybersecurity. So we are recommending thinking of 
changing that a little bit. The first thing, drawing on the 
experience of the NSTAC, which General Raduege was involved in, 
drawing on the experience of the British with CPNI, drawing on 
some earlier U.S. initiatives. We think you need to develop a 
Presidential-level advisory body, maybe something like the 
President's Export Council, like the NSTAC, senior-level 
figures who come regularly, who meet with senior-level people 
in the administration who have the clearances, who exchange 
information, and, because this is a long-term relationship, 
build trust. You need that relationship for trust. We used to 
have that before some functions moved to DHS. Through no fault 
of its own, that trust is no longer there. So we think this is 
one of the things that needs to go back to the White House.
    The other issue--and we are struggling with it a little 
bit--is, as you noted, companies don't like to share 
information if they think it is revealing something to their 
competitors or if they are giving the Government something and 
never get anything back. We think you need a new kind of 
organization that fixes both those problems, something that we 
have been calling an operational organization. When companies 
run into problems they do collaborate, right? But they 
collaborate informally now. They don't do it through the 
existing structures.
    So we are looking for a way to capture that informal 
collaboration, to create affinity groups around a particular 
problem, and then use that as the vehicle to drive an 
operational approach.
    In both of these cases, though, the new senior-level 
advisory body and the new operational body, information sharing 
would be a tool. It wouldn't be the goal. Information sharing 
seemed really important after 9/11. Now I think we recognize it 
is just one way to achieve our mission, which is to secure the 
Nation's networks more comprehensively.
    Mr. McCaul. All right. I like the creativity in trying to 
deal with this. If I could just indulge the Chair for one more 
question. With respect to regulations, that always certainly 
raises a lot of issues. But this new concept is not a mandate, 
a prescriptive type of regulation. Can you expand on what this 
new concept would be with respect to any sort of regulatory 
scheme coming out of these recommendations?
    Mr. Lewis. Certainly. Let me walk you through where we are 
and note that we haven't reached the end of the path. So if I 
end abruptly, please excuse me. But we had a discussion: Can we 
rely on the market? After some back-and-forth, we decided no, 
that you needed to have some additional regulation.
    We then decided, though, this isn't national regulation or 
broad regulation. You don't need to give DHS the authority to 
regulate cyberspace. That is unnecessary. There are in the 
three critical infrastructures we identified--telecom, finance, 
electricity--existing regulatory authorities. I should note we 
have depended in many ways on the work GAO has done on this. 
The study they are releasing today has been very helpful in 
guiding us. So our recommendations will change somewhat as we 
work through the new material they have provided.
    In those three structures, though, you have plenty of 
regulatory bodies. They have some authority. What they don't 
have is a way to coordinate or a way to figure out if what they 
are doing is adequate. So what we would like is for some new 
entity, probably in the White House, to be able to provide an 
approach that finds, you know, common things that agencies can 
do with their regulated sectors to find sort of minimal 
thresholds for security, and that finds a way to build 
collaboration. So we are looking to do this in as light a 
manner as possible.
    Command-and-control regulation, I think we have all agreed 
prescriptive regulation will not work. But at the same time, as 
you discovered in your NERC/FERC hearings, just giving the 
companies their head and saying, ``Good luck and write back 
when you have something to tell'' is also insufficient. So we 
are hoping we can come up with what we have been calling an 
ideal NERC/FERC approach. I know after the hearing, both NERC 
and FERC have gone off and are trying to redo how they approach 
this problem. We are learning from them. So that is what we are 
looking at.
    Mr. McCaul. Well, thank you very much. Just let me close by 
saying thank you to the three members of the Commission and all 
the members of the Commission who provided such a great public 
service to this Nation. Thank you.
    Mr. Langevin. I thank the gentleman. The Chair now 
recognizes the gentleman from New Jersey for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman. Mr. Chairman, it is 
interesting that the GAO presentation and report by the 
Commission, although not finished yet, are pretty close. 
Interesting. There is no national strategy, which would mean to 
me we are waiting for the politick to take into effect. We are 
still at risk in this area. We lack a specific focus. I think 
those were your words, Dr. Lewis.
    Mr. Lewis. Yes.
    Mr. Pascrell. So I have some comments to make and then I 
have some questions. I think that let's be real, Mr. Chairman. 
This administration has been a disaster when it comes to 
cybersecurity since 2003 when they got rid of Richard Clarke. 
It has been all downhill since. It wasn't until the DNI came 
into effect last year and started shaking things up that they 
showed any initiative whatsoever.
    So let's name names and let's talk about accountability, 
because I think that we have been so concerned about being 
politically correct, that is why we haven't corrected the 
vulnerability. We are good at it, both sides of the aisle. This 
is not partisan. The last time I checked, we have at least four 
people over at DHS who claim to be in charge of cybersecurity.
    Dr. Lewis, I want you to interrupt me if I say anything 
that is not true. Just interrupt me.
    Mr. Lewis. You are on track so far.
    Mr. Pascrell. It is no wonder that we are in the shape we 
are in today. Robert Jamison, the Under Secretary who leads the 
ship, apparently, gave himself a solid C in cybersecurity last 
time he came before the full committee.
    Mr. Chairman, when was getting a C a good mark? I know what 
the nuns used to tell me. You are on the way to D. You 
remember, Mr. Chairman, that shortly after, the chief 
information officer told us, ``You don't know what you don't 
know.'' That is rather startling. He was promoted to Deputy 
Under Secretary. These are the individuals in charge of 
cybersecurity in DHS.
    Now, the White House has been equally fill-in-the-blank. 
They announced a new initiative and then overclassified 
everything. The Senate tried for months to get them to make the 
information public so we could have a public dialog about some 
of these things. The White House naturally refused to budge. 
Then yesterday I see that the Special Assistant to the 
President is giving a talk about the Nation's cybersecurity 
posture. I don't know if you heard it or read it. They had the 
gall to charge Government employees $50 to attend it to hear 
this guy talk.
    Now, a lot of things have been said about New Jersey, but 
there has got to be some transparency here as to what in God's 
name is going on. To hear about an initiative that they refused 
to talk about for months.
    I am hoping that Mr. Kurtz, who was Special Assistant to 
the President when he worked for Richard Clarke, and the other 
panelists might have some insight for us about this sad state 
of affairs.
    So let me ask all of you, from your dealings with these 
people, these folks who I named--I gave you names--is 
cybersecurity an issue of national security that is being taken 
seriously or is it simply a political football that people are 
trying to build a legacy out of? Who wants to take the first 
crack?
    Mr. Lewis. I will go first. You know, in some ways I am 
going to defend the administration a little bit, which would 
probably be a surprise to them.
    We had a lunch with Admiral McConnell shortly before he was 
confirmed as the Director of National Intelligence. At that 
lunch somebody asked him: What is the one thing that keeps you 
up at night? You know, I thought he was going to say Iraq or 
North Korea. He said cybersecurity. I was shocked. So he at 
least has been focused on this from the time he took office. I 
give him credit for that.
    The Comprehensive National Cybersecurity Initiative is 
actually a very useful series of steps. It is doing the TIC, 
EINSTEIN, the FDCC. Some of the other activities have made some 
useful progress. One of the things I know people are worried 
about, one of the things we want to help with in the Commission 
is not to have a fumble. You know, we have made a little 
progress in the last year. When the administration changes the 
norm, whether it is a Democratic or a Republican 
administration, you know, is to sort of start over. We can't 
afford that.
    So we want to say some of the things that have come out of 
this initiative have been good. I agree with you completely, it 
would be a lot easier to avoid that fumble if this wasn't 
classified Top Secret.
    I think yesterday's presentation by a series of 
administration figures was useful. I understand in part that 
was in reaction to the hearing today and a way to get some 
information out. So you can take credit for that. But I think 
they have done some good things. We do have a lot of work to 
do, I couldn't agree with you more. But there are folks who are 
trying.
    Mr. Pascrell. General.
    General Raduege. Thank you, sir. To answer your questions, 
I believe there are people who are taking this issue very 
seriously. I believe, though, that they are frustrated, as I 
talk with them individually in social settings and professional 
settings, of how massive this issue really is. They are 
frustrated with their organizations, they are frustrated with 
where this issue lies in their organization, at what level, and 
the processes that are involved with trying to coordinate 
actions for a national-level serious issue with the patchwork 
and the centers of brilliance, but also the centers of 
incompetence that are throughout the daily workings and 
dealings that they are faced with.
    Mr. Pascrell. Thank you. Mr. Kurtz.
    Mr. Kurtz. Let me try to answer by a bit of a story first. 
Back at the end of June, DHS convened a meeting to discuss 
Project 12, which is, if you will, the one element of the 
initiative that relates to the private sector. At the head of 
the table we had several senior people from the Department of 
Homeland Security, including Under Secretary Jamison, Secretary 
Baker, Secretary Garcia, and Admiral Brown.
    What was so discouraging about that day, and it was a day 
that I will never forget--and I worked in Government for a long 
period of time, but it was really a travesty--we had in-
fighting between the DHS senior leadership as to how to 
proceed. It demonstrated in spades the lack of leadership, the 
fact that no one was in charge at DHS. What was really 
sickening about it was that we had probably 70 or so people 
from the private sector there who have spent a lot of time over 
the past several years trying to work with the Department, and 
yet again had been asked to put together some material for the 
Department to digest on how they could work together, but the 
Department basically threw it overboard, wasn't listening to 
the private sector. That was incredibly discouraging to 
witness.
    I will say Admiral Brown sat at that meeting, saw what 
happened, and I think has been trying to work a way forward. So 
I don't want to implicate Admiral Brown in this at all.
    The second point is I do find it also very discouraging 
that it took so long for the White House to come out and speak 
about this publicly. Even when they did, it was in kind of a 
strange manner, having an event at an association, whereas it 
wasn't, if you will, a public event.
    What is really discouraging, taking all of that into 
account, is the Comprehensive National Cyber Initiative is 
actually not bad. It was a good-news story for the White House. 
It was a good-news story for the administration. But they 
sought to overclassify, to make it political, to see that CSIS 
was only out to go after them, when in the end, CSIS, Jim 
Lewis, John Hamre, opened the door to several agencies to come 
in and brief, and they took us up on that. DOD, the DNI, FBI, 
NCIS all came to brief us. Elements of DHS came to brief us. 
Not all. The White House in all cases discouraged people from 
participating.
    Mr. Pascrell. Why?
    Mr. Kurtz. You ask them. I don't know the answer.
    Mr. Pascrell. That is a good answer. Okay.
    Mr. Lewis. Can I add one thing too, too, sir? We all three 
of us still have our clearances. All three of us have worked on 
very highly classified programs. All three of us have gotten 
briefed on the Cybersecurity Initiative. There is no reason to 
classify it. We know what classified programs look like. There 
are a couple parts in this that, yeah, they are classified. But 
most of it, it could be open.
    Mr. Pascrell. I think the Chairman is noting this. How 
about Mr. Powner?
    Mr. Powner. Clearly, our work over the years has showed 
that DHS has been completely ineffective in fulfilling their 
responsibilities as the cybersecurity focal point. I want to 
just--and you know, we see this a lot where everyone points 
fingers and we don't have authority and the whole bit. 
Executives get paid to break down the bureaucracy and get 
things done. That hasn't happened.
    Mr. Pascrell. Thank you, Mr. Powner.
    Thank you very much. Mr. Chairman. I want to hang a 
question out there, and I don't want an answer. I want us to 
think about it very seriously, though. If we are attacked in 
cyberspace, therefore, what level of response is appropriate?
    Thank you, Mr. Chairman.
    Mr. Langevin. Thank the gentleman for his questions. The 
gentleman from Texas, Mr. Green, has 5 minutes for questions.
    Mr. Green. Thank you, Mr. Chairman. I am not sure exactly 
where to go after all that I have heard. I thank all of you for 
taking the time to be a part of trying to assist your 
Government, and for your candor. I will tell you we don't hear 
this type of straightforward talk, straight talk, if you will, 
that often. I appreciate the fact that you have been absolutely 
candid about this.
    I am going to go in a slightly different direction, 
although I have enjoyed hearing concerns about who should be in 
charge. In your review of this, did you conclude that the 
technology does exist to actually have cybersecurity?
    Mr. Lewis. The short answer would be yes. Now, people would 
be surprised at that. You can never secure things 100 percent, 
just as your car can never be 100 percent safe. But there is a 
lot we could do. There are things where spending on research 
would help, but we have not taken advantage of all of the 
technology that is available.
    Mr. Green. Yes, sir.
    Mr. Kurtz. Well, I would agree with what Jim is offering. 
There are lots of interesting technologies out there that can 
be deployed, and there are some questions as to where they are 
most effectively deployed in order to better protect the 
networks, in other words, at the edge or in the core. That is 
one of the issues we are, in fact, wrestling with in the area 
of regulation, as to what might carriers or ISPs--what should 
they consider doing in order to better protect the networks?
    So the technologies exist. But, however, rubbing up against 
that is the open nature of the internet and anonymity on the 
internet. In these two, the desire to be secure, the desire to 
have private communications, and at the same time use the same 
vehicle for anonymous communications, they conflict. That is an 
issue that, at least over the past 48 hours in the e-mail going 
back and forth among commissioners, is a real issue to seek to 
try to find a way forward on. It is not clear.
    Mr. Green. Yes, sir.
    General Raduege. I would just say, Congressman, that the 
technology definitely exists, but it always has to be 
refreshed.
    In this particular area of information technology and the 
speed that the internet and all of our information networks 
work at and the sophisticated attackers that we have out there 
and those who are always trying to gain some advantage, the 
technology has to keep up as they gain in their ability to do 
evil to us, whether it is in the areas of national security 
perspectives or in cybercrime or even the eventuality of 
perhaps terrorist activity.
    Mr. Powner. What we see in our work is primarily an issue 
with--not with the technology but with individuals; do we have 
cyber analysts, criminal investigators, and those types of 
expertise in the Federal agencies such as DHS and other places.
    Mr. Green. Hence, is it fair to conclude--and I suspect 
that this has already been stated--but if the technology 
exists, and we are still at an unacceptable level of 
vulnerability, then it is clearly a question of leadership?
    Yes, sir.
    Mr. Kurtz. Yes, it is a question of leadership. It is also 
a question of putting in place the mechanisms to promote 
collaboration, if in the space of just the Federal Government, 
in securing its own networks, is putting in place the 
collaboration mechanisms.
    Actually, the Comprehensive National Cyber Initiative 
envisions some of that. Unfortunately, as far as execution on 
the initiative, one of the key centers associated with that, 
the National Cyber Security Center has, if you will, not been 
able to proceed because it has not received adequate funding in 
support. So it is struggling. Similarly, the US-CERT, which has 
responsibilities in this area, is struggling as well.
    So it is, if you will, not just technology. It is putting 
the organizations together with the right technology and 
collaboration mechanisms in order to achieve better security.
    Mr. Green. On the question of leadership--and I know that 
is a very broad statement, leadership, and I understand it--
should this leadership emanate with the Congress? Or should we 
continue to allow the executive to prescribe, mandate which 
Department, who is going to be in charge? Or do you think that 
we need to, here in Congress, give some additional sense of 
direction, if you will?
    Mr. Kurtz. Well, I think, first, the effort by Chairman 
Langevin and a call to establish a caucus, a cyber caucus, here 
in the House at least, is a very good idea. Because I think, in 
working on this issue in the past, there are several committees 
of jurisdiction up here on Capitol Hill, and trying to get 
everybody on the same page and come up with a common waveform 
is difficult.
    At the same time, if Congress could do that, then I think 
there could be, if you will, more focused direction from 
Capitol Hill as to where the executive branch might ultimately 
focus. But I think the executive branch, for its part, should 
and can reorganize itself to have more authority and oversight 
within the EOP, the Executive Office of the President.
    Mr. Lewis. It is strange, in following on Paul's remarks, 
Congress has to be involved in this. One of the things we have 
concluded is that it won't work unless you have both Congress 
and the executive branch. What we need is vigorous oversight, 
which this committee has provided. We have seen how useful it 
can be, but we need more of it. We need the right authorities. 
People mentioned FISMA, Clinger-Cohen, some other authorities, 
Title 3, Title 18. We have authorities that were very often 
written in the 1970's. Only Congress can update them to fit the 
age we live in now.
    You know, and finally we need the right level of funding. 
Congress has been so far in cybersecurity. In fact, you have 
been generous ahead of knowing what the plans were to spend the 
money, so I congratulate you on that. It is a first. But we do 
need Congress to continue to support building the 
infrastructure that will let us be more secure.
    So these are things that neither branch can do by 
themselves, and we have to find a way to build the partnership 
between you two for this to work.
    Mr. Green. Thank you, Mr. Chairman.
    Just a closing comment. Given the comments that have been 
made, we have some duty to respond. Hopefully we will find a 
way to get that done, because the vulnerability being offset by 
the technology, and if that doesn't occur, and then we do have 
an attack, obviously people are going to want to know why we 
didn't do more.
    Thank you.
    Mr. Langevin. I thank the gentleman for his questions, as 
well as his final statement. I agree, there is no issue that is 
as important right now as cybersecurity. As we go forward, it 
poses a significant national security challenge to the United 
States, not just now but well into the future, particularly 
because it is such a moving target. We are going to have to try 
to continue to stay one step ahead of those who may wish us 
harm. This is not a partisan issue, and we need to stay united 
and well-coordinated on the effort to have a comprehensive 
cybersecurity strategy as we go forward.
    With that, I will have just one final question, and then I 
am going to yield to the Ranking Member for a closing comment 
as well.
    Since this administration is coming to an end and there 
will be a new administration coming in, we are just now 
starting to really have a comprehensive, coordinated response 
and strategy on cybersecurity for the 21st century and for the 
44th presidency.
    Can I ask the panel, have you studied the Presidential 
candidates' platforms? What they are proposing in terms of 
cybersecurity? What efforts will the Commission make to place 
its report on the desk of the new administration?
    I will leave that for the panel, whoever would like to 
begin first.
    Mr. Lewis. I will start, Mr. Chairman.
    We have been working with the campaigns. We have kept them 
informed from the start of the Commission. There are several 
people on the Commission involved in both campaigns.
    When we began this, we picked three campaigns as the ones 
likely to make it to the finish line. Of the two that are 
there, they were among the three we picked. So we do have 
contacts.
    We hope and have reached out to both of the campaigns now 
to have more detailed briefings, briefings with more senior 
members of each campaign. We waited, on your recommendation, I 
might add, for the conventions. Now that the conventions are 
over, we have asked, can the Chairman go and brief on our 
recommendations? So I think in the next month or so, we will 
have that opportunity.
    Mr. Langevin. Very good.
    General Raduege. I would say, Mr. Chairman, that I have 
been encouraged by both candidates in the fact that they have 
both recognized cybersecurity in their statements and needing 
greater investment and greater attention, and the fact that it 
appears like they both recommend that this be a top priority in 
their administration.
    Mr. Langevin. Very good.
    Mr. Kurtz, anything to add in closing?
    Mr. Kurtz. No, that is fine.
    Mr. Langevin. Okay. Very good.
    With that, I will yield to the Ranking Member for a 
comment.
    Mr. McCaul. I thank the Chairman.
    You know, as I look at the pictures of the World Trade 
Center behind the witnesses, and the Pentagon, you know, 
associating myself with Congressman Green's remarks, we don't 
want to be sitting here some day with a cyber 9/11 and say, 
what could we have done differently to stop that from 
happening? I think that is the whole vision of this commission 
and the value of this commission.
    There are some very good men and women serving at the 
Federal level and serving in our military and serving at NSA 
and serving at DHS, who sincerely want to protect this Nation. 
I believe there are many that are doing a fine job. This 
commission is not in the business, in my view at least, it was 
not my vision that this commission would be in the business of 
finger-pointing and partisanship. In fact, what we attempted to 
do--this is one of the rare times that I have seen, frankly, 
that we have been able to come together, I think. The beauty of 
it is coming together in a bipartisan way, with a nonpartisan 
commission that is simply just trying to protect America. I 
think that is the value that the next administration and the 
next President will see in this and, I think, the American 
people.
    Thank you.
    Mr. Langevin. Very good. I thank the Ranking Member for his 
comments.
    I just want to thank the panel again for their testimony 
today, particularly for the great work that the GAO has been 
doing over the years. Thank you for your contributions and 
service to this subcommittee in particular.
    I want to thank the members of the CSIS Commission who are 
here today for your great leadership, dedication. You, as well, 
perform a great service to our Nation. We are all grateful for 
your dedication, your patriotism and for the countless hours 
that you put into this effort to better secure the Nation 
against cybersecurity attack and just cybersecurity in general.
    So, with that, I want to again thank the witnesses for 
their valuable testimony and the Members for their questions.
    The Members of the subcommittee may have additional 
questions for the witnesses, and we will ask that you respond 
expeditiously in writing to those questions.
    Again, we remind everyone that this will be one of many 
hearings that will take place going forward. The next hearing 
will be before the House Permanent Select Committee on 
Intelligence that will occur on Thursday.
    Hearing no further business, the subcommittee now stands 
adjourned.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
